<html>
<title> - ENSURING COLLECTIVE BARGAINING RIGHTS FOR FIRST RESPONDERS: H.R. 980, THE PUBLIC SAFETY EMPLOYER-EMPLOYEE COOPERATION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 ENSURING COLLECTIVE BARGAINING RIGHTS FOR FIRST RESPONDERS: H.R. 980, 
                           THE PUBLIC SAFETY
               EMPLOYER-EMPLOYEE COOPERATION ACT OF 2007

=======================================================================


                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTH,
                     EMPLOYMENT, LABOR AND PENSIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 5, 2007

                               __________

                           Serial No. 110-44

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

35-663 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR AND PENSIONS

                ROBERT E. ANDREWS, New Jersey, Chairman

George Miller, California            John Kline, Minnesota,
Dale E. Kildee, Michigan               Ranking Minority Member
Carolyn McCarthy, New York           Howard P. ``Buck'' McKeon, 
John F. Tierney, Massachusetts           California
David Wu, Oregon                     Kenny Marchant, Texas
Rush D. Holt, New Jersey             Charles W. Boustany, Jr., 
Linda T. Sanchez, California             Louisiana
Joe Sestak, Pennsylvania             David Davis, Tennessee
David Loebsack, Iowa                 Peter Hoekstra, Michigan
Phil Hare, Illinois                  Cathy McMorris Rodgers, Washington
Yvette D. Clarke, New York           Tom Price, Georgia
Joe Courtney, Connecticut            Virginia Foxx, North Carolina
                                     Timothy Walberg, Michigan


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 5, 2007.....................................     1

Statement of Members:
    Andrews, Hon. Robert E., Chairman, Subcommittee on Health, 
      Employment, Labor and Pensions.............................     1
        Prepared statement of....................................     3
        Table: State Recognition of Public Safety Officers' 
          Collective Bargaining Rights...........................    54
        ``Report Finds Labor Management Cooperation Critical to 
          State and Local Government Success,'' U.S. Department 
          of Labor News Release, dated May 28, 1996..............    62
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     5
        Prepared statement of....................................     6
    Kline, Hon. John, Senior Republican Member, Subcommittee on 
      Health, Employment, Labor and Pensions.....................     3
        Prepared statement of....................................     4
        Letter from the Fraternal Order of Police and the 
          International Association of Fire Fighters, dated April 
          18, 2007...............................................    64
        Letter from the International Association of Chiefs of 
          Police, dated April 18, 2007...........................    64
        Letter from the National Association of Counties, dated 
          June 5, 2007...........................................    65
        Letter from the National Conference of State Legislatures    65
        Two letters from the National League of Cities, dated 
          June 19, 2007..........................................    65

Statement of Witnesses:
    Banks, William, professor of law, Syracuse University........    38
        Prepared statement of....................................    39
    Clark, R. Theodore, Jr., partner, Seyfarth Shaw, LLP, on 
      behalf of the National Public Employer Labor Relations 
      Association (NPELRA).......................................    29
        Prepared statement of....................................    30
    Nunziato, Paul, vice president, Port Authority Police 
      Benevolent Association, member, National Association of 
      Police Organizations (NAPO)................................    17
        Prepared statement of....................................    19
    O'Connor, Kevin, assistant to the general president, 
      International Association of Fire Fighters (IAFF)..........     9
        Prepared statement of....................................    11
    Reichenberg, Neil E., Esq., CAE, executive director, 
      International Public Management Association for Human 
      Resources (IPMA-HR)........................................    21
        Prepared statement of....................................    23
    Seybold, Hon. Wayne W., Mayor, Marion, Indiana...............    26
        Prepared statement of....................................    28


 ENSURING COLLECTIVE BARGAINING RIGHTS FOR FIRST RESPONDERS: H.R. 980,


      THE PUBLIC SAFETY EMPLOYER-EMPLOYEE COOPERATION ACT OF 2007

                              ----------                              


                         Tuesday, June 5, 2007

                     U.S. House of Representatives

         Subcommittee on Health, Employment, Labor and Pensions

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 3:03 p.m., in 
room 2175, Rayburn House Office Building, Hon. Robert Andrews 
[chairman of the subcommittee] presiding.
    Present: Representatives Andrews, Kildee, Tierney, Sestak, 
Hare, Clarke, Kline, and McKeon.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jody Calemine, Labor Policy Deputy 
Director; Carlos Fenwick, Policy Advisor for Subcommittee on 
Health, Employment, Labor and Pensions; Michael Gaffin, Staff 
Assistant, Labor; Brian Kennedy, General Counsel; Joe Novotny, 
Chief Clerk; Megan O'Reilly, Labor Policy Advisor; Robert 
Borden, General Counsel; Cameron Coursen, Assistant 
Communications Director; Steve Forde, Communications Director; 
Ed Gilroy, Director of Workforce Policy; Rob Gregg, Legislative 
Assistant; Jim Paretti, Workforce Policy Counsel; and Loren 
Sweatt, Professional Staff Member.
    Chairman Andrews [presiding]. Ladies and gentlemen, good 
afternoon. The subcommittee will come to order.
    We are pleased to be joined today by our fellow committee 
member and distinguished colleague Congressman Kildee. He will 
be speaking in just a moment.
    But I did want to welcome the audience to the hearing, the 
witnesses to the hearing.
    It is a cherished and assumed right of Americans that they 
have the right to join or not join a union. They have the right 
to engage in collective bargaining, should they choose to join 
a union.
    An employer has obligations to respect the integrity of the 
collective bargaining process, as does the union; that when the 
parties reach an agreement they have a reciprocal and equal 
obligation to honor that agreement; that should they choose in 
the agreement to establish a procedure to hear grievances about 
the workplace, that that grievance procedure be uniformly and 
fairly applied; that there be terms and conditions that 
establish issues about which collective bargaining will be held 
and issues that are outside the purview of collective 
bargaining.
    Whether you drive a truck or work in a retail store, teach 
school, build houses, Americans assume that they have these 
rights and can participate or not participate, as they see fit.
    In my view, there is a glaring exception to this assumed 
right that is ironic since the glaring exception affects people 
who do so much for the rest of us. I have always thought that 
there were two categories of Americans that deserve special 
recognition.
    One are those who serve in the armed forces, in this era 
who voluntarily serve in the armed forces, as each person in 
uniform does, and these are people who take a special and 
exceptional risk so the rest of us can enjoy the liberties and 
freedoms that we enjoy so much.
    And a second category of special Americans, I believe, are 
those who serve in the public safety professions: those who 
respond to the call when we think we see a burglar in the 
backyard; those who answer the call of the fire siren and 
respond, whether it is the home of someone they know, respect, 
like or dislike; those who serve in the ambulance who deal with 
the golden hour when someone's life is either saved or lost, 
depending on the promptness and reliability of the people doing 
the work.
    I find it ironic that the glaring exception that exists to 
the assumed right to organize affects these individuals. The 
evidence would show that there are a dozen states that do not 
provide a collective bargaining mechanism for people in the 
public safety professions. There are nearly two dozen states 
for whom the mechanism, I believe, appears to be insufficient 
to protect the rights that most of us assume that we have. I 
believe this is a glaring omission that should be remedied.
    The purpose of the hearing today is to debate the pros and 
cons of that proposition. This is a proposition that has been 
introduced by Congressman Kildee with his co-sponsor 
Congressman Duncan that has very broad bipartisan support.
    This is not an ideological position of any ideology. It is 
not a partisan position of either party. The legislation Mr. 
Kildee and Mr. Duncan have sponsored has enjoyed broad 
bipartisan support, and I think it is for a good reason: 
because that exception that I made reference to is one that 
many members feel should not exist.
    So, today, we are going to examine this question. We are 
going to hear from two panels of witnesses, one that will 
include Mr. Kildee, the principal author of the legislation, 
and a second that will include people who have expertise in the 
field of the legal consequences of this bill and people who 
have expertise in the field of dealing with public safety 
emergencies every day of their lives and their careers. I think 
the panels will be informative, and we will learn much from 
them.
    I did, before I recognize Mr. Kline, want to point out that 
Mr. Duncan, the other original co-sponsor of this bill, is not 
present today because of medical reasons, and we wish him a 
speedy recovery and return to Washington. He is a very 
respected colleague on both sides of the aisle, and we thank 
him for his work on this issue and hope he rejoins us quickly.
    At this time, I would ask if my friend from Minnesota, Mr. 
Kline, would like to make an opening statement.
    [The prepared statement of Mr. Andrews follows:]

Prepared Statement of Hon. Robert E. Andrews, Chairman, Subcommittee on 
                 Health, Employment, Labor and Pensions

    Good afternoon and welcome to today's hearing entitled ``Ensuring 
Collective Bargaining Rights for First Responders: H.R. 980, The Public 
Safety Employer-Employee Cooperation Act of 2007.'' I believe it is 
essential that every rank and file worker, whether public or private, 
enjoy certain basic rights and protections in the workplace. One of 
those basic worker rights, known as collective bargaining, is 
surprisingly withheld from many of our public safety workers today. In 
today's hearing, we will layout the factual predicate as to why it is 
necessary for Congress to provide collective bargaining rights to those 
public safety officers who currently do not possess them and to 
consider the Public Safety Employer-Employee Cooperation Act of 2007 
(H.R. 980) as a legislative vehicle to provide them.
    Historically, states have possessed the authority to manage their 
own employees. Whether their employees have or lack basic worker 
protections, the decision to provide these protections has been in the 
hands of the states. However, in our post-9/11 world, the increasing 
demand and pressure placed on our public safety officers warrants the 
need to ensure that these dedicated public servants have basic 
collective bargaining rights to protect their families, and their 
benefits during the times when their help is needed most.
    The Public Safety Employer-Employee Cooperation Act of 2007 would 
extend the basic right to discuss workplace issues with their employers 
to our firefighters, law enforcement officers, emergency medical 
services personal and correctional officers. These brave men and women, 
who risk their lives each day and serve as our first line of defense 
against natural disasters, terrorists, criminals, medical emergencies, 
etc., deserve more than the status quo. The least Congress can do is 
provide the right for every public safety officer to meet at the table 
with their employer to discuss ways to improve the safety of their 
community and the well-being of their families. I look forward to 
hearing all of the witnesses' testimony today.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman. I will limit my opening 
statement and ask that my prepared statement be included as 
part of the record.
    Chairman Andrews. Without objection.
    Mr. Kline. Thank you.
    And I would like to, of course, welcome our friend and 
colleague, Mr. Kildee--I am looking forward to hearing from him 
and then getting him back up on this side of the room--and our 
panel of witnesses, quite a good panel of witnesses today, as 
you say, with a broad range of expertise.
    I want to emphasize that, as we look at this proposed 
legislation, that it does have pretty strong bipartisan 
support, because I think that most of us recognize that what we 
are talking about here in this specific legislation, in this 
specific bill, are indeed what the chairman has called special 
Americans, those who are involved in attending to our safety 
and wellbeing on a daily basis.
    But we want to look at this in the context of the larger 
picture. If it applies to these special Americans, this 
intrusion of the federal government, the labor relations of the 
states and local governments, would it apply to all? Certainly, 
I do not think the chairman was meaning to suggest that it 
would apply to members of the armed forces, for example.
    So there are some avenues of this that we want to explore, 
and I am very much looking forward to the testimony and then an 
opportunity for questions and answers with our terrific panel.
    With that, I yield back, Mr. Chairman.
    [The opening statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
         Subcommittee on Health, Employment, Labor and Pensions

    Good afternoon and thank you, Mr. Chairman. I would first like to 
thank the Chairman for his flexibility in the scheduling of this 
hearing; I appreciate his willingness to move it to this afternoon so 
that I was able to attend, and appreciate his cooperation in that 
regard.
    Today the Subcommittee will examine legislation that would, for the 
first time, interject the federal government into the labor relations 
of state- and local-governments, and one segment of their public 
employees, namely, firefighter, police, and public safety personnel.
    I think it is important to remember as we begin this debate today 
that the question is not whether firefighters, police, and other 
specified public-sector employees should have the right to join unions, 
or whether a unionized firefighter or police force is better than a 
non-union one. Rather, the question simply is whether the federal 
government should be making that decision for each of the fifty states 
or whether these states and localities should maintain that right--as 
they have for nearly 70 years--for themselves.
    To that end, I do have concern--and I recognize that this is an 
issue on which my colleagues on both sides of the aisle can and will, 
in good conscience, disagree--that H.R. 980 represents a significant 
and unprecedented expansion of the federal government's power into the 
labor relations of states, cities, and towns with their public safety 
workforces. H.R. 980 sets forth a list of ``minimum standards'' that 
state labor laws must meet, and charges a federal agency in Washington 
DC with determining in the first instance whether state laws ``pass 
muster'' under these new federal standards. If they do not, a state has 
one of two choices: Either change its law to meet the federal standard, 
or submit to the burden of federal regulation. To my mind, that is a 
variation on ``heads you lose, tails I win''--whether directly or 
indirectly, the federal government will be the one setting the 
standards for state and local labor relations in the public safety 
arena.
    I expect that we'll hear today from bill supporters that this bill 
is only a modest proposal, and that many states already have laws that 
they believe meet federal standards. I take that suggestion in good 
faith, but respectfully suggest that on its face, none of us can be 
sure that it is true. What we do know is that at a minimum, within 180 
days of this bill becoming law, each and every of the fifty states must 
submit their state labor laws for review by a federal agency, which 
alone is charged with determining whether they meet the new federal 
standard. Both from a practical standpoint and as a matter of 
principle, this raises real concern to me. In essence, we are 
substituting our judgment for maybe one, maybe twenty, or maybe fifty 
state legislatures--in doing so, we are stepping on the right of states 
and localities to tailor these laws, via the democratic process, to 
meet their needs.
    Moreover, as a practical matter, I have real questions as to how 
this bill will work--if a state law is found to meet the federal 
standard 100%, it appears that the state is free of federal regulation. 
What if the state's law meets 95% of the test? As I read this bill, if 
a state is unable or unwilling to make slight changes to their laws to 
accommodate that 5% variance, the federal government steps in and 
assumes regulation of the state's public safety workforce. That may be 
many things, but it is certainly not a modest, limited proposal.
    Finally, I expect we'll hear from witnesses on both sides as to 
whether or not H.R.980 would be found to be constitutional, or whether 
it unconstitutionally extends the powers of the federal government and 
abrogates states' sovereign rights. I doubt that the issue will be 
resolved today--nor do I argue that the absence of a definitive answer 
should prevent us from looking closely at the substance of the 
legislation--but I do think if we are to engage in the process of 
legislating in a serious and meaningful way that we need to be made 
aware of all the potential issues.
    Mindful of the hour and the full slates of witnesses before us, 
with that, Mr. Chairman, I yield back my time and look forward to our 
witness's testimony.
                                 ______

    Chairman Andrews. Thank you very much, my friend from 
Minnesota.
    Without objection, all members will have 14 days to submit 
additional materials for the hearing record, including but not 
limited to opening statements.
    It is now my pleasure to introduce a cherished member of 
this committee and a very good friend, Congressman Kildee.
    Three things I admire most about Dale Kildee: The first is 
his tenacity in pursuing his deeply held beliefs. He tells 
stories about his father's involvement in organized labor back 
in the days of the auto industry in his native Michigan, which 
I find moving to this day. Second is he is a genial colleague 
who respects and is treated with respect by members of both 
sides of the aisle. And third, he is a very proud military 
parent.
    Now, is it two of your sons, Dale, that have served in the 
armed forces of the country?
    Mr. Kildee. Two.
    Chairman Andrews. He mentions them frequently, and having 
met one of them, I can see why he is so proud, and he is like a 
lot of other Americans that his family has served in a very 
special way.
    So, Dale, we welcome you home to your committee and would 
invite you to make your statement.

  STATEMENT OF HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you very much, Mr. Chairman, and thank 
you, Ranking Republican Member Kline.
    I would like to commend you for holding this hearing today 
on H.R. 980, the Public Safety Employer-Employee Cooperation 
Act, which would enable public safety employees to discuss work 
conditions with their employers.
    This legislation would extend to firefighters, police 
officers, EMTs and other public safety officers the basic right 
to discuss workplace issues with their employers.
    I sponsored this legislation with my friend from Tennessee, 
Mr. Duncan, because I feel that public safety officers who risk 
their lives to protect us deserve a say in decisions that 
affect their lives and their livelihood.
    I would also like to thank the groups that we have worked 
with on this legislation, including the International 
Association of Firefighters, the Fraternal Order of Police, the 
American Federation of State, County and Municipal Employees 
and the National Association of Police Organizations.
    The absence of the right to collectively bargain denies 
these public servants the opportunity to influence decisions 
that affect their work and their families. Firefighters and 
police officers take seriously their oath to protect the 
public, and, as a result, they do not engage in work slowdowns 
or stoppages.
    Our firefighters and police officers risk their lives to 
keep us safe, yet there are some states in this country that 
deny them the basic right to discuss workplace issues with 
their employers, a right which many Americans have.
    We should not forget that firefighters and policemen and 
women risk their lives every day to protect us and all of the 
public. At the very least, they should be allowed to negotiate 
for wages, hours and safe working conditions.
    When I was in the state legislature in Michigan in my very 
first term, back in 1965, I helped pass legislation that grants 
all public employees, including police and firefighters and 
EMTs people, the right to bargain collectively. In Michigan, 
this has led to a working environment that effectively protects 
the public that both employers and employees can be proud of.
    Studies have actually found that cooperation between public 
safety employers and employees reduces fatalities, improves 
public safety services and saves the taxpayers money.
    While I feel that Michigan is an excellent example of how 
employer and employee cooperation can benefit everyone, I do 
not want to impose the same structure on all states. I 
recognize that states may have different approaches that would 
be more effective for that particular state.
    H.R. 980 would merely create a minimum standard that states 
have the flexibility to implement, regulate and enforce as they 
see fit. Many states, such as Michigan, have laws in place that 
go well beyond 980, and these states would not be affected by 
this legislation. Additionally, this legislation does not allow 
strikes or lockouts, and it preserves management rights.
    Firefighters and police officers are very serious about 
their commitment to public safety. They deserve the basic 
right, Mr. Chairman and Ranking Member Kline, to sit down with 
their employers and discuss their work conditions. The 
reasonableness of this legislation is demonstrated by the wide 
bipartisan support it has from its 235 co-sponsors, and I urge 
my colleagues to join me in moving this legislation through the 
House.
    And at that, I would yield to the next panel or, if you 
have questions, respond to any questions.
    [The statement of Mr. Kildee follows:]

Prepared Statement of Hon. Dale E. Kildee, a Representative in Congress 
                       From the State of Michigan

    Mr. Chairman, I would like to commend you for holding this hearing 
today on H.R. 980, the Public Safety Employer-Employee Cooperation Act, 
which would enable public safety employees to discuss work conditions 
with their employers. This legislation would extend to firefighters, 
police officers, EMTs and other public safety officers the basic right 
to discuss workplace issues with their employers.
    I sponsored this legislation with my friend from Tennessee, Mr. 
Duncan, because I feel that public safety officers, who risk their 
lives to protect us, deserve a say in decisions that affect their lives 
and their livelihood.
    I would also like to thank the groups that we have worked with on 
this legislation, including the International Association of Fire 
Fighters, the Fraternal Order of Police, the American Federation of 
State, County and Municipal Employees, and the National Association of 
Police Organizations.
    The absence of the right to collectively bargain denies these 
public servants the opportunity to influence decisions that affect 
their work and their families.
    Firefighters and police officers take seriously their oath to 
protect the public, and as a result they do not engage in work 
slowdowns or stoppages.
    Our firefighters and police officers risk their lives to keep us 
safe. Yet there are some states in this country that deny them the 
basic right to discuss workplace issues with their employers--a right 
many Americans have. We should not forget that firefighters and police 
men and women risk their lives everyday to protect the public. At the 
very least, they should be allowed to negotiate for wages, hours, and 
safe working conditions.
    When I was in the state legislature in Michigan, I helped pass 
legislation that grants all public employees the right to collectively 
bargain. In Michigan, this has led to a working environment that 
effectively protects the public and that both employers and employees 
can be proud of. Studies have actually found that cooperation between 
public safety employers and employees reduces fatalities, improves 
public safety services, and saves the taxpayers money.
    While I feel that Michigan is an excellent example of how employer 
and employee cooperation can benefit everyone, I do not want to impose 
the same structure on all states. I recognize that states may have 
different approaches that would be more effective for that state.
    H.R. 980 would merely create a minimum standard that states have 
the flexibility to implement, regulate and enforce as they see fit. 
Many states, such as Michigan, have laws in place that go well beyond 
H.R. 980, and these states would not be affected by this legislation.
    Additionally, this legislation does not allow strikes or lockouts 
and it preserves management rights. Firefighters and police officers 
are very serious about their commitment to public safety. They deserve 
the basic right to sit down with their employers and discuss their work 
conditions. The reasonableness of this legislation is demonstrated by 
the wide bipartisan support it has from its 235 cosponsors. I urge my 
colleagues to join me in moving this legislation through the House. I 
yield back the balance of my time.
                                 ______
                                 
    Chairman Andrews. Well, I thank our distinguished colleague 
for his testimony. Frankly, we have had the chance to read 
through the testimony. Your written testimony is on the record, 
without exception, and because we will have the chance to talk 
about it at length at other times, I would forego any 
questioning.
    Mr. Kline, do you have a desire to question Mr. Kildee?
    Mr. Kline. No, I want to get him up here.
    Chairman Andrews. Mr. Hare, do you have--okay.
    Well, Dale, we thank you for your efforts. And please come 
on up to this side of the table.
    Mr. Kildee. Thank you for this opportunity.
    Chairman Andrews. You are very welcome.
    I would ask if our second panel could find their way to the 
front table, and we will begin momentarily.
    We welcome the panel to the subcommittee. We are very 
appreciative of everyone giving us time.
    I am going to introduce by biography the witnesses, and 
then we will ask each of you to make your statement.
    Without objection, your written statement in its entirety 
will be entered in the record. We ask each of you to take 5 
minutes and summarize your written statement so that we can get 
to questions from the members.
    I will introduce the witnesses at this time.
    Kevin O'Connor currently serves as assistant to the general 
president of the International Association of Firefighters, the 
IAFF, representing over 260,000 members across the United 
States and Canada. In this capacity, Mr. O'Connor supervises 
the development of policy objectives for IAFF and engages in 
lobbying efforts before the Congress and various regulatory 
agencies.
    Kevin served proudly for 15 years as a firefighter-EMT in 
the Baltimore County Fire Department, where he saw duty both as 
a line firefighter and as an aide to the chief of the 
department. He received a commendation for bravery for a rescue 
during a multiple-alarm apartment fire.
    He majored in political economy at Washington and Lee 
University and graduated from the Harvard Trade Union Program.
    Kevin, welcome. It is good to have you with us.
    Paul Nunziato is a police officer with the Port Authority 
of New York and New Jersey Police Department. Paul is a member 
of a bi-state police department, where he is certified as a 
police officer in both New Jersey and New York.
    During a more than 20-year career with the Port Authority 
Police, Paul has worked at every command in both New York and 
New Jersey. He has been a member of the Port Authority Police 
Benevolent Association since 1987, holding various elected 
offices, including treasurer and currently first vice 
president.
    Paul was involved in the evacuation effort of the World 
Trade Center as well as the recovery effort at Ground Zero.
    Paul, welcome. Glad to have you with us.
    Neil Reichenberg--did I get your name correctly, Neil? Neil 
is executive director of the International Public Management 
Association for Human Resources located in Alexandria, 
Virginia.
    Mr. Reichenberg is the executive director of the 
association which focuses on public-sector human resource 
management, and its membership works at all levels of 
government. Mr. Reichenberg is responsible for the overall 
management of the association and has worked there for 27 
years, serving as executive director since 1996.
    Mr. Reichenberg is a graduate of the University of Maryland 
and New York Law School and is a member of the bar in New York 
and the District of Columbia.
    Welcome. Nice to have you with us.
    Mayor Wayne Seybold--is that the correct pronunciation? 
Mayor Seybold was elected the 29th mayor for the city of Marion 
in Indiana, correct, and took office on January 1, 2004.
    During his administration, Mayor Seybold has worked 
diligently with community leaders and elected officials to 
recapture the quality of life, declaring, ``Make it Marion,'' 
by enhancing the quality of life and community pride, by 
providing an aesthetically clean environment, a strong economic 
foundation and a marketable future for the community.
    I do not think we can say this about any witness we have 
ever had here, Mayor, that prior to running for office, Mayor 
Seybold began his career with his sister, Kim, as a figure 
skating pair in the 1988 Calgary Olympics, a real achievement.
    Most of us probably could not stand up in an ice skating 
rink. I should not say that about my friend from Minnesota.
    [Laughter.]
    But it is good training for mayor, I guess, to be able to 
dodge and weave around various things.
    Our next witness is R. Theodore Clark, Jr., who is a 
partner in the very fine firm of Seyfarth Shaw based in 
Chicago. Mr. Clark is a partner and practices public-sector 
labor relations law at that firm. He is also an adjunct 
professor in public-sector labor relations law at Northwestern 
University Law School.
    Mr. Clark has served as a consultant to the Illinois 
governor's advisory commission on labor management policy for 
public employees, as a part-time faculty member for courses on 
public employee labor relations for the Graduate School of 
Public Administration at the University of Southern California, 
and as a lecturer on labor law and legislation at DePaul 
University.
    Mr. Clark has also served as a member of the board of 
directors of the Legal Assistance Foundation of Chicago and is 
on the advisory committee of the Illinois Educational Labor 
Relations Board.
    Welcome, Mr. Clark. We are glad that you are with us.
    And finally, Professor William C. Banks is recognized 
internationally as an expert in constitutional law, national 
security law and counterterrorism.
    Since 1987 when the Federation of American Scientists asked 
him to provide a legal perspective on first use of nuclear 
weapons, Professor Banks has helped set the parameters for the 
relatively new field of national security law.
    He is a graduate of the University of Nebraska and the 
University of Denver, where he earned his J.D. degree and a 
master's in law and society.
    Mr. Banks joined the faculty of the Syracuse University 
College of Law in 1978. He became the founding director of the 
Institute for National Security in Counterterrorism at Syracuse 
in 2003. He also served as special counsel to the United States 
Senate Judiciary Committee in 1994. Mr. Banks worked on the 
committee on the confirmation hearings for Supreme Court 
nominee Stephen G. Breyer.
    Welcome very much.
    This is a great panel. We look forward very much to hearing 
your testimony.
    One final word about the light box that is in front of you. 
As I said, your statements have been entered into the record in 
their entirety, the written statements, and we do ask you to 
give us a synopsis of 5 minutes so the panel can hear you.
    When the yellow light goes on, you have 1 minute remaining 
in your 5 minutes, and we would ask you to wrap up when you see 
the red light on, out of courtesy to your fellow panelists and 
to the members of the committee.
    We will begin with Mr. O'Connor.
    I did want to mention, since we have the record here, that 
a friend and colleague of ours, Tom Canzanella, president of 
New Jersey IAFF, is critically ill, suffered a brain aneurysm, 
as we understand, at the end of last week, but I know that the 
prognosis is good the last I heard.
    And I hope that you would pass along to Tom and his family 
and his brotherhood in the IAFF that we wish him the best.
    Mr. O'Connor. We will do that, Mr. Chairman. I want to 
thank you for your phone call over the weekend. It meant a lot 
to Tom's family and to our members in New Jersey. We very much 
appreciated your offer to help.
    Chairman Andrews. Well, you are welcome. And our insistence 
is that when Tom recovers, he should be a witness before us at 
one of these hearings.
    Mr. O'Connor, you are recognized.

     STATEMENT OF KEVIN O'CONNOR, ASSISTANT TO THE GENERAL 
      PRESIDENT, INTERNATIONAL ASSOCIATION OF FIREFIGHTERS

    Mr. O'Connor. Thank you very much, Mr. Chairman, Ranking 
Member Kline and members of the committee. I appreciate the 
very generous introduction.
    I would like to note that it is my honor today to represent 
the now 283,000 members of the International Association of 
Firefighters, who risk their lives every day serving America's 
communities.
    I would also like to note, in addition to being a career 
firefighter in Baltimore County for 15 years, I also very 
proudly served as a volunteer in that very same jurisdiction.
    During my years as a local union officer and 9 years as 
president of Local 1311, I had the opportunity to bargain 10 
contracts that measurably improved the delivery of service and 
improved safety for firefighters serving in Baltimore County.
    H.R. 980 is about two things: fundamental fairness and 
creating a structured process in which public safety officers 
and their respective governmental employers can meet and 
discuss workplace safety and security issues.
    Let me begin by first addressing the issue that is most 
pressing to our nation, and that is homeland security. Since 9/
11, a day of infamy that claimed the lives of 343 of my brother 
firefighters, the public has developed a new respect for the 
vital work of firefighters and our integral role in protecting 
homeland security.
    Mr. Chairman, after reading everyone's written testimony, I 
think that everyone on this panel agrees on one thing: We 
support collective bargaining rights in general. It is also not 
disputed that this process, provided through 50 separate 
individual state laws, will measurably improve emergency 
services and public safety. Post-9/11, Americans have a right 
to the homeland security dividend that collective bargaining 
pays.
    If, and only if, states choose not to provide this valuable 
homeland security tool and to preserve their own individual 
state's rights, it becomes a job of this Congress to set 
minimum standards to make both firefighters and the general 
public safer.
    First responders are, indeed, the nation's first line of 
defense against terrorist attacks and natural disasters. We are 
the first on every emergency scene and the very last to leave.
    To do our jobs effectively and safely, we need a seat at 
the table. We need to able to discuss response issues, engage 
in meaningful dialogue about the equipment, staffing and 
processes required to protect the jurisdictions which we so 
proudly serve. Simply put, collective bargaining is an 
appropriate and necessary vehicle to facilitative those goals.
    Years ago, many elected officials looked at public safety 
issues as the exclusive purview of local governments and felt 
that this issue should be left to the states. Since the 
creation of FEMA in 1979, the federal government has assumed a 
growing and increasingly supervisory role in local public 
safety issues, and since 9/11, the connection between federal, 
state and local government has become totally entwined.
    The federal government has mandated basic levels of 
training in response standards. It has instituted the National 
Response Plan and created the National Instant Management 
System. To ensure more effective response to manmade and 
natural disasters, the federal government has greatly expanded 
their support of the Urban Search and Rescue Program, a 
fantastic example of cooperation between federal, state and 
local response providers.
    Therefore, it is a very logical progression for the federal 
government to ensure a process by which local government and 
first responders can meet and discuss those important safety 
and homeland security issues, and that process is collective 
bargaining.
    Since the 1930s, all private-sector employees have enjoyed 
the right to collectively bargain. The workers who build our 
firetrucks and manufacture equipment can collectively bargain, 
but tens of thousands of men and women who risk their lives 
every day cannot. There is something wrong with that equation.
    H.R. 980 provides us a seat at the table, nothing more. The 
measure is designed to encourage each state to craft its own 
statute to govern bargaining processes for their public safety 
employees.
    Provided that four simple conditions are met, the federal 
government adopts a hands-off posture. Those conditions are: 
one, a mechanism for employees to determine whether or not they 
wish to be represented; two, a formalized process for 
management and labor to meet and discuss terms and conditions 
of employment; three, a non-binding dispute mechanism process; 
and, four, the ability to enter into legal binding contracts 
if--and I emphasize if--an agreement is reached.
    Provided that states substantially comply with those four 
caveats, the federal government has no further role in that 
state. If, however, a state refuses to enact its own law, the 
Federal Labor Relations Authority would issue regulations that 
would, in fact, become that state's bargaining law for public 
safety officers.
    Recognizing that we are dealing with public funds and local 
government's fiscal authority, jurisdictions are never 
compelled to reach an agreement. At the end of the day, local 
government controls the purse strings and can simply say no.
    H.R. 980 mandates a process, not an outcome. This bill 
presents a rare opportunity to create a process that will both 
improve emergency service and provide a voice in the workplace 
for our country's dedicated first responders.
    On behalf of our nation's first responders, including those 
in law enforcement represented by the FOP and other 
organizations, I thank you very much for this opportunity to 
testify, and we would be delighted to answer any questions for 
the committee.
    [The statement of Mr. O'Connor follows:]

    Prepared Statement of Kevin O'Connor, Assistant to the General 
      President, International Association of Fire Fighters (IAFF)

    Chairman Andrews, Ranking Member Kline, and distinguished members 
of the Subcommittee. My name is Kevin O'Connor and I am the Assistant 
to the General President of the International Association of Fire 
Fighters (IAFF). I am pleased to have the opportunity to appear before 
you today on behalf of General President Schaitberger and the 283,000 
men and women who comprise the IAFF.
    Before I begin, allow me to express my appreciation to you, Mr. 
Chairman, for holding this hearing on this very important topic. You 
have a long, distinguished history of championing the issues of concern 
to America's fire fighters. Your leadership as Co-Chair of the 
Congressional Fire Services Caucus is recognized and appreciated by 
both the career and volunteer fire services. I am looking forward to 
working with you and the committee in the coming weeks as this 
legislation moves forward. And I would be remiss if I did not also 
commend the extraordinary leadership of the author of this legislation, 
Representative Dale Kildee. Representative Kildee first introduced this 
bill a dozen years ago, and has remained its most steadfast champion. 
The nation's fire fighters and law enforcement officers are indebted to 
him.
    Mr. Chairman, I appear before you today not only as a 
representative of the IAFF, but also as someone who understands from 
first hand experience the significance of this issue. I spent my entire 
adult life in the fire service, starting as a volunteer fire fighter, 
serving for 15 years as a professional fire fighter and E.M.T. in the 
Baltimore County, Maryland Fire Department, and serving for 9 years as 
President of my local union, the Baltimore County Fire Fighters 
Association and 6 years as President of the 7,500 member Maryland State 
and District of Columbia Fire Fighters Association. From this vantage 
point, I not only know what it's like to work as a fire fighter, I also 
know just how much can be achieved through the bargaining process.
    I have many memories of those years sitting across the bargaining 
table negotiating with five different Fire Chiefs and four County 
Executives--three Democrats and one Republican. Obviously, we had areas 
of disagreement and agreement. I had some successes and my share of 
defeats. But the one thing I am absolutely certain of, and to which 
those Chiefs and County Executives would no doubt agree, is that the 
citizens of Baltimore County are safer today because of what we 
achieved together. It was a structured, cooperative process that 
benefited both the 700,000 taxpaying citizens of Baltimore County, and 
the members of the Baltimore County Fire Department.
Fundamental Fairness
    In essence, this hearing is about fundamental fairness for fire 
fighters and police officers. Today, the vast majority of American 
workers--private sector employees, non-profit association employees, 
transportation workers, federal government employees, and even 
congressional staff--have the right to bargain collectively. As I 
listened to the debate earlier this year over the Employee Free Choice 
Act, I was struck by how universally acknowledged the right to bargain 
has become. While people can, and do, argue over many of the details of 
labor law, few voices can be heard questioning the fundamental right of 
employees to discuss how they do their jobs with their employers. I 
find it noteworthy that the most recent group of employees to gain 
collective bargaining rights owe this right to the conservative 104th 
Congress led by House Speaker Newt Gingrich and Senate Majority Leader 
Bob Dole. As a result of a key provision of the Contract with America, 
the Capitol Police Force who are protecting us here today enjoy 
collective bargaining rights.
    I also note that the National Association of Counties, one of the 
largest organizations representing the employers with whom we 
negotiate, has expressly endorsed collective bargaining for all non-
supervisory employees as a means to promote ``positive labor-management 
relationships'' and ``provide workers with safe and meaningful 
employment.''
    Despite this near-universal acceptance of the right to bargain, 
tens of thousands of our nation's fire fighters and police officers on 
the frontlines of homeland security are unfairly denied this basic 
protection. In too many states, first responders are prevented from 
having a conversation with their employer about how to improve 
fundamental services and protect the public. Let me be clear: this is 
not about the ability to strike, which H.R. 980 expressly outlaws. No 
first responder that I know believes in strikes--it contradicts what 
protecting the public safety means. Nor is it about union organizing, 
since the IAFF already represents over 85% of fire fighters 
nationally--including those in Right to Work states. In fact, we may be 
the only national union that does not even have an organizing 
department.
    This is about fundamental fairness: the right to talk about how to 
best protect the public safety should be provided to the first 
responders who risk so much to keep our nation safe.
Collective Bargaining in the Public Safety Arena
    Perhaps in no occupation is the need for collective bargaining 
greater than in public safety. Fire fighting is the nation's most 
dangerous profession. One-third of our members are injured in the line 
of duty each year. In 2007, approximately 100 of my brothers and 
sisters will pay the ultimate price. Thousands of times today, in every 
corner of America, an alarm will ring in a firehouse and men and women 
will bravely place themselves in harm's way.
    Fire fighters take these risks for one reason: we are dedicated to 
protecting the health and safety of our neighbors and our communities. 
It is this same dedication and commitment to public safety that we 
bring to the bargaining table. The issues that are of paramount 
importance to us are often not things such as wages and benefits, the 
traditional subjects of bargaining. Rather, we are focused on how we 
can do our jobs better and more safely and improve the level of service 
that we provide to our communities.
    Frontline emergency responders often view public safety through a 
different lens than public safety directors or city managers. We are 
the ones who rush into the burning buildings, dive into frigid waters, 
and perform countless rescues each year. We believe we have a valuable 
perspective to share, and I am here today to ask you to grant us a seat 
at the table.
Effective Local Emergency Response is a Cornerstone of Homeland 
        Security
    September 11, 2001 demonstrated the courage and sacrifice of our 
fire fighters and police officers. On that tragic day, I lost 343 of my 
brother fire fighters, each of whom was a union member who enjoyed 
collective bargaining. I should note that even though they were working 
without a ratified contract, these dedicated fire fighters performed 
beyond the call of duty and made the ultimate sacrifice. All first 
responders place duty above all else. With or without collective 
bargaining, we will always place serving the public as our first and 
foremost priority.
    But September 11 was not just a day of tragedy and heroism. It also 
fundamentally changed the way our nation views emergency response. 
Prior to 9/11, public safety was viewed almost exclusively as a local 
government function. No more. Americans now universally understand that 
homeland security is a vital federal government responsibility. And 
effective local emergency response is a cornerstone of homeland 
security. Homeland security starts with hometown security.
    Thus, the federal government embarked on the creation of a new 
security paradigm that embraces active federal government involvement 
in local emergency response preparedness. The importance of this new 
paradigm was further highlighted when a devastating hurricane in the 
Gulf Coast took hundreds of lives and stretched emergency response 
capabilities to the breaking point.
    Following the issuance of Homeland Security Presidential Directive-
8 (HSPD-8), which declared it a federal responsibility to ``strengthen 
preparedness capabilities of Federal, State, and local entities,'' 
Congress and the Executive Branch worked together to create a network 
of programs that permanently linked federal and local response 
activities. These initiatives are manifested in the National Response 
Plan, the National Preparedness Goal, the National Incident Management 
System, in the coordination of several training and exercise programs 
including TOPOFF (a series of exercises designed to help states and 
localities gain an objective assessment of their capacity to prevent or 
respond to and recover from a disaster), and in related guidance to 
states in aligning state homeland security strategies with the National 
Preparedness Goal. Through these executive and statutory precedents, 
and combined with $18 billion in grants to state and local governments 
since 9/11, the federal government has articulated that an effective 
emergency response at the local level is a fundamental building block 
of homeland security, critical to ``strengthen preparedness 
capabilities.''
    It is therefore surprising and somewhat disappointing to hear some 
argue that it is inappropriate for the federal government to ensure 
that emergency responders have a voice in the workplace. Some of those 
who today oppose any federal involvement in ensuring that fire fighters 
have the opportunity to raise safety issues with their employer are the 
same people who gave speeches on the floor of the U.S. House of 
Representatives lauding their heroism following the 9/11 attacks.
    Ensuring the ability of emergency responders to work cooperatively 
with the local officials who manage emergency response is every bit as 
much a legitimate federal government responsibility as any homeland 
security initiative Congress has undertaken in the past five years.
Public Safety Collective Bargaining Works
    Studies have consistently shown that collective bargaining in the 
public sector improves the delivery of emergency services. The 
Secretary of Labor's Task Force on Excellence in State and Local 
Government, a national bi-partisan study group evaluating means to 
improve delivery of state and local government services, found in 1996 
that ``collective bargaining relationships, applied in cooperative, 
service-oriented ways, provide the most consistently valuable structure 
for beginning and sustaining workplace partnership with effective 
service results.''
    Real world examples abound to verify these findings. Almost every 
day in almost every corner of America, representatives of frontline 
fire fighters are sitting down with their fire chief or public safety 
director to discuss how to do their job more effectively and more 
safely.
    The Phoenix, Arizona Fire Department is recognized as one of the 
preeminent fire departments in the world, a status achieved largely 
through labor-management cooperation. According to Chief Dennis 
Compton, who also served as the President of the International 
Association of Fire Chiefs: ``A positive labor/management process can 
form the foundation for planning and problem-solving in a fire 
department. When labor and management leaders work together to build 
mutual trust, mutual respect, and a strong commitment to service, it 
helps focus the fire department on what is truly most important * * * 
providing excellent service to the customers and strong support to the 
members who serve them. I know this is possible because for 32 years, I 
had the honor of serving in two fire departments in Phoenix and Mesa, 
Arizona who transformed this concept into reality. The labor/management 
process established in the Phoenix Fire Department in the early 1980's 
is the principal reason that the organization has earned an 
international reputation as arguably the most effective public safety 
organization in the world.''
    In Kansas City, Missouri, the Labor-Management Committee works 
together to address almost all the significant operational issues 
facing the Fire Department. In recent years, the Committee created a 
joint plan that identified areas of greatest need, and--just as 
significantly--identified possible funding sources to help meet those 
needs. The result has been an increase in both staffing and apparatus, 
with minimal drain on local treasury. Kansas City Chief Richard 
``Smokey'' Dyer, also a past president of the International Association 
of Fire Chiefs, echoes Compton's views: ``I've been a Chief in 
departments with collective bargaining and without. The bargaining 
process is, by far, preferable because it establishes structured 
processes in which we can jointly address safety, service delivery and 
other issues impacting public safety.''
    In New York City, a five-year collective bargaining agreement was 
ratified last year that included a long-term solution to FDNY's 
staffing shortage. The density and large number of high rise buildings 
in New York pose unique problems for the city's emergency response 
agencies. The agreement will enable the Fire Department to more 
effectively respond to the extraordinarily labor-intensive tasks 
required to perform rescue operations in that challenging urban 
environment.
    In Hennepin County, Minnesota, the local fire fighters union 
conducted extensive research into ambulance and stretcher designs after 
city paramedics began complaining of back and neck problems. The union 
made recommendations to purchase new ambulance suspensions and 
ergonomic stretchers, but the Fire Department balked because it didn't 
have sufficient budgetary authority. So the union worked with 
management through the collective bargaining process to examine the 
purchases in the overall context of workers compensation, disability 
benefits, and sick leave. The result was an agreement that allowed the 
city to purchase the newer technology, resulting in healthier 
paramedics and a savings to taxpayers.
    In Omaha, Nebraska, collective bargaining has produced measurable 
staffing and health and safety improvements throughout the Fire 
Department resulting in safer fire fighters and a safer community. 
Before collective bargaining, the Omaha Fire Department lost one fire 
fighter in the line of duty every five years. Since fire fighters were 
provided with a means to provide input about health and safety aspects 
of their jobs, they haven't lost a fire fighter in the last twelve 
years. This was achieved by increasing staffing to meet national 
consensus standards for safe fireground operations, and by securing 
enclosed cabs on fire trucks. The bargaining process in Omaha also has 
also addressed the dangerous health hazards posed by asbestos at fire 
stations and provided hearing protection for fire fighters.
    In Miami, Florida, the local fire fighter union was able to offer 
data that persuaded city leaders to establish one of the nation's 
foremost fire department-based EMS delivery models. The EMS system, 
which has now been working effectively for several years, reduced 
response times and reduced costs to taxpayers. Based on the Miami 
experience, the model has been adopted by several other fire 
departments. In almost every instance, the new system was a joint 
labor-management initiative. According to Miami Fire Chief William 
Bryson ``The bottom line is collective bargaining worked to improve 
services in our city.''
    From my own experiences in Baltimore County, through our bargaining 
process we established a labor/management, a quality of work life, and 
safety and health committees. Collectively, these committees assisted 
the department in evaluating our response profiles and levels of 
service, selecting the appropriate breathing apparatus, turnout 
clothing and other safety equipment, abating diesel exhaust emissions 
in our 26 stations, developing a wellness and fitness initiative and 
cooperatively taking over a 55 member private-industrial fire 
department and integrating their personnel and emergency operations 
into the Baltimore County Fire Department.
    And in your District, Ranking Member Kline, in Chaska, Minnesota, 
the city's fire department stepped up to provide certified ambulance 
service when a previous emergency service provider failed to meet the 
city's public safety standards. Aided by a collective bargaining 
process, the Fire Department earned the necessary certification and 
assumed the responsibility of providing effective paramedic services to 
the citizens of Chaska.
    Such examples are just a few of the literally thousands of 
beneficial public safety initiatives that have been achieved through 
labor-management cooperation.
    Moreover, just as there are countless examples of the benefits of 
collective bargaining, there is also ample evidence that the absence of 
a bargaining relationship is the source of significant problems. At its 
most fundamental level, collective bargaining is simply a process for 
resolving disputes. Without such a process in place, disputes often 
find other outlets that sometimes prove dangerous and costly. An 
absence of collective bargaining for fire fighters and police officers 
is, at a minimum, a missed opportunity to improve the delivery of 
emergency services.
    Consider the case of Dean Bitner, President of the Springdale, 
Arkansas Professional Fire Fighters. Without the ability to bring 
issues to the bargaining table, Bitner took his concerns about 
understaffing and inadequate fire protection to the city council. The 
fire department retaliated by passing over Bitner for promotion to 
Captain, despite his having the highest scores on the civil service 
exam. When Bitner filed suit alleging violation of his first amendment 
rights, he was demoted and removed from a pension committee. And when 
he asked the Fire Chief why he was not allowed serve on the pension 
committee, he was promptly fired for insubordination.
    In the face of these unwarranted assaults on his rights, a federal 
court ordered the city to reinstate Bitner and promote him to Captain. 
But that was only the beginning. The court also awarded Bitner hundreds 
of thousands of dollars in damages including back wages and 
compensatory damages, and ordered the city to pay Bitner's attorneys' 
fees.
    A similar story took place in LeMay Township, Missouri. Fire 
fighter David Foote was fired for telling a meeting of the local 
Republican Party (of which he was an active member) about the fire 
department's refusal to replace unsafe personal protective gear. Like 
Bitner, Foote had to file suit to obtain justice. He was ordered to be 
rehired and awarded in excess of $400,000 in damages.
    Dean Bitner and David Foote are not alone. IAFF attorneys have 
handled over a dozen first amendment cases in non-bargaining states in 
recent years, every single one of which resulted in taxpayers being 
forced to pay large settlements to fire fighters who were wrongfully 
fired or disciplined for expressing their views.
    But the lesson of these cases is not just that cities have wasted 
time and millions of taxpayer dollars. The more significant lesson is 
that lawsuits and politics are a poor substitute for collective 
bargaining. Had Bitner and Foote had the opportunity to raise their 
concerns in a collective bargaining environment, and had the 
jurisdictions of Springdale and LeMay Township had an established 
process for resolving grievances and appealing disciplinary actions, 
none of this would have occurred. Both the localities and their fire 
fighters could have spent their time, energy, and money where it 
belongs--on protecting the public safety.
    Not surprisingly, the problems associated with the absence of a 
bargaining relationship take their toll on employees. The inability to 
bring important workplace issues to the attention of management harms 
morale, and can undermine the espirit de corps essential in public 
safety occupations. This is especially true in communities where fire 
fighters without bargaining rights engage in mutual aid responses 
alongside fire fighters who are protected by bargaining laws. The 
disparate treatment is painfully obviously to those denied a voice in 
the workplace, and we have witness high rates of turnover in many of 
these fire departments. Ultimately, these morale problems jeopardize 
public safety.
The Public Safety Employer-Employee Cooperation Act (HR 980)
    In order to ensure that collective bargaining is universally 
available to those public safety officers who want it, Representative 
Kildee worked with the IAFF, FOP, and other organizations representing 
law enforcement officers to craft the Public Safety Employee-Employer 
Cooperation Act. Let me say first that we don't call it the Cooperation 
Act for nothing. The heart of the bill is promoting cooperation between 
public safety employers and employees whose relationship is critical to 
the effective delivery of emergency services. The purpose of this bill 
is to have fifty state laws that give fire fighters and police officers 
access to a bargaining process that fosters cooperation between public 
safety officers and the agencies that employ them, a process that is 
working well in 30 states and creating an atmosphere in which all 
parties are stakeholders in improving safety and making communities 
more secure. Rather than imposing a single federal labor relations law 
on states, the goal of this legislation is to have fifty state laws 
that are written by states and administered by state agencies.
    To accomplish this, the legislation establishes four minimum 
standards: the right to form and join a union; the right to bargain 
over working conditions; the right to sign legally enforceable 
contracts; and the right to utilize an impasse resolution procedure. 
The impasse mechanism does not need to be binding on the parties. For 
example, many states use mediators or fact-finders to help resolve 
disputes.
    Just as important as what the bill requires, is what it does not 
require. It does not require binding arbitration to resolve disputes; 
does not allow public safety officers to strike; does not take away 
authority of states and local jurisdictions to have ultimate say over 
all public safety and financial issues; does not require any specific 
method to certify unions; does not interfere with state ``right-to-
work'' laws; and does not infringe on the rights of volunteer fire 
fighters.
    The bill tasks the Federal Labor Relations Authority (FLRA), an 
entity with unparalleled expertise in public sector labor relations, to 
review state collective bargaining laws to see if they meet the minimum 
standards previously described. In states that already have a 
bargaining process that works to keep the public safe, as a majority of 
states do, there would be no further role for the federal government.
    The minority of states that do not meet these minimum standards 
would have two years to enact their own public safety collective 
bargaining law that could be tailored to meet the emergency service 
needs of each state. The bill gives the utmost flexibility to states in 
crafting their own collective bargaining law so they can best use this 
tool to augment emergency response capability across their states. Once 
state legislation is enacted, FLRA would review it to determine whether 
it comports with the minimum standards.
    Those states that decline the opportunity to author and administer 
their own collective bargaining law would be subject to regulations 
promulgated by the FLRA. The regulations would function as labor law in 
the state, and the agency would serve as the labor board for public 
safety employers and employees. Once a state subsequently adopts a 
bargaining law for public safety that complies with H.R. 980's minimum 
standards, the FLRA's authority immediately dissolves.
    It is our hope and our belief that every state that has not already 
done so will take this opportunity to enact their own unique state 
bargaining law for fire fighters and law enforcement officers. Because 
the legislation leaves almost all the most significant labor issues to 
the states to resolve, we are confident that states will find ample 
incentive to enact and administer their own public safety collective 
bargaining law rather than come under federal authority.
Evolution of the Cooperation Act
    The legislation before you today embodied in HR 980 is the result 
of many years of study, refinement and compromise. Since the IAFF first 
identified this legislation as our top priority, we have worked with 
both supporters and opponents of the legislation to attempt to address 
all concerns.
    Earlier versions of the legislation contained a much longer list of 
standards that states must meet. It was Senator Judd Gregg, the long-
time sponsor of the Senate version of the legislation, who encouraged 
us to pare down the criteria to the most minimal level.
    We also added language expressly addressing concerns raised by 
supporters of ``right to work'' laws and volunteer fire fighters to 
make sure the Cooperation Act in no way conflicted with their goals.
    Some Members of Congress who represent smaller jurisdictions raised 
concerns about the impact on small town America, which prompted us to 
agree to language allowing states to exempt small communities.
    We extended the timeline for states to act, in recognition of the 
fact that many state legislatures meet only certain months of the year, 
and must plan for the consideration of major legislation well in 
advance.
    And we worked closely with attorneys to assure that the bill 
comports with United States Supreme Court decisions. In light of the 
new, expansive federal role in Homeland Security, we do not believe any 
constitutional challenge would succeed. But we wanted to be sure our 
bill would withstand constitutional scrutiny based on precedent that 
did not consider recent homeland security enactments. I have attached 
to my statement a memo from an attorney explaining how the legislation 
was crafted consistent with Supreme Court precedents.
    In sum, we are confident that the bill before you today addresses 
all legitimate, pragmatic concerns. It is through these efforts that 
the bill has come to the point where it enjoys such broad, bipartisan 
support. The legislation has already been cosponsored by a majority of 
the House of Representatives, as well as a majority of this committee. 
And the list of sponsors spans a wide cross-section of ideology and 
geography. We are proud that HR 980's supporters range from some of the 
most conservative Republicans to the most liberal Democrats. It is a 
common sense proposal that engenders support across all spectrums.
Impact on States and Localities
    Despite the far reaching significance of this legislation, HR 980 
would impose at most a minimal burden on the overwhelming majority of 
states. As noted above, most states would be completely unaffected 
because they already fully comply with the minimum requirements of the 
legislation. But even in many of the states that do not currently 
comply, coming into full compliance would be relatively simple and 
inexpensive.
    Many states without a statewide law provide bargaining for public 
safety officers through local ordinances. HR 980 specifically protects 
these local laws by limiting the authority of the FLRA to enforce its 
regulations in cities and counties that meet the minimum requirements 
of the bill. States that have strong local laws would therefore retain 
their ability to pass the decisions about bargaining procedures to 
their localities.
    Some states already have strong statewide laws that apply 
exclusively to fire fighters, and these states would have the option of 
either extending their existing law to other public safety employees or 
retraining their fire fighter-only law, while allowing FLRA to manage 
labor relations in other sectors.
    And some states have a bargaining process but bar their courts from 
enforcing agreements. Simply requiring local agencies to live up to 
agreements they freely reach should not impose an undue burden.
Local Government Maintains Ultimate Control
    At the end of the day, HR 980 does not require public agencies to 
reach any agreement or spend any money it does not believe is in the 
best public interest. There is nothing in the bill that infringes on 
the ability of government agencies to manage public safety operations 
however they see fit.
    The bill does, however, require public safety employers to meet 
with the representatives of emergency responders to consider their 
views. In light of the fact that these domestic defenders are on the 
front lines in our nation's homeland security, Congress is fully 
justified in insisting that state and local officials sit down and 
talk.
    But ultimately, government agencies retain the unfettered ability 
to simply say ``NO'' to any union proposals.
Conclusion
    Since the days of the sweatshop environments that dominated our 
nation's factories at the beginning of the last century, collective 
bargaining is largely responsibility for virtually all the reforms that 
have transformed the way Americans view work. In terms of public 
safety, collective bargaining has already transformed the emergency 
services of the majority of states in the nation, making safer our 
public safety officers, our communities, and our nation.
    Collective bargaining is overwhelmingly used as a mechanism to 
enable labor and management to work together for their mutual benefit. 
The bill promotes conversation between public safety employer and 
employees. More than anything else, HR 980 establishes a process but 
does not mandate an outcome. Nowhere is this relationship more 
important than in the delivery of emergency services when lives are at 
stake. The right to be heard at work--collective bargaining--is a 
fundamental right, just as the public's right to depend upon emergency 
services is a fundamental right.
    The Cooperation Act is about fairness and security--nothing more. 
Allow us a voice. Allow us a seat at the table. The enactment of HR 980 
will protect both our first responders and the communities we serve, 
and make our nation safer and more secure.
    I appreciate the opportunity to appear before this subcommittee and 
would be happy to answer any questions you may have.
                                 ______
                                 
    Chairman Andrews. We thank you very much, Mr. O'Connor.
    And we welcome Mr. Nunziato. Welcome to the committee.

STATEMENT OF PAUL NUNZIATO, POLICE OFFICER, NEW YORK/NEW JERSEY 
                         PORT AUTHORITY

    Mr. Nunziato. Thank you. Good afternoon, Chairman Andrews, 
Ranking Member Kline and members of the subcommittee. My name 
is Paul Nunziato, and I am a police officer with the Port 
Authority of New York and New Jersey Police Department.
    I also serve as vice president of the Port Authority Police 
Benevolent Association, which is a member organization of the 
National Association of Police Organizations, NAPO. NAPO 
represents approximately 238,000 sworn law enforcement officers 
throughout the United States.
    State and local public safety officers play a crucial role 
in our nation's counterterrorism and homeland security efforts. 
They are the first to respond to terrorist attacks, natural 
disasters and other mass casualty events as evidenced by the 
tragic events of September 11.
    Congress has long recognized the benefits of a cooperative 
working relationship between labor and management. Over the 
years, Congress has extended collective bargaining rights to 
public employees, including letter carriers, postal clerks, 
public transit employees, and even congressional employees.
    However, under current federal and state laws, some public 
safety employees, including law enforcement, corrections, and 
fire, are denied the basic rights of collective bargaining. Law 
enforcement officers put their lives on the line every day to 
preserve our security and peace that our nation enjoys. It is 
wrong that many of these same officers are denied the basic 
American rights of collective bargaining for wages, hours and 
safe working conditions.
    I believe that collective bargaining rights are crucial to 
the protection and health and welfare of the public safety 
officers and their families. I base that upon my own experience 
as a police officer working for an agency directly impacted by 
the worst terrorist attack in this nation's history.
    On September 11, 2001, the World Trade Center, the 
headquarters of the Port Authority of New York and New Jersey 
and worldwide symbol of New York and America, was attacked. 
Only 10 Port Authority police officers were working at the 
World Trade Center police command at the time of the terrorist 
attacks on September 11.
    Within minutes of the attacks, police officers from 
throughout our job mobilized from all 13 police commands to 
respond to the attacks. I myself responded from home and was 
mobilized from my command, PATH, a subway system running 
between New York and New Jersey.
    Of the 23 members of my roll call at the PATH police 
command that day, 10 came home. The Port Authority Police 
Department suffered the worst single day loss of life of any 
law enforcement agency in the history of the United States.
    Despite the tremendous risks, I can definitively state that 
no Port Authority police officer refused an order to respond to 
the World Trade Center or enter the towers on September 11.
    Unfortunately, I have direct knowledge that our collective 
bargaining agreement provides security to our members and their 
families. My partner, Donald McIntyre, was one of the 37 
members of my police department who lost their lives in the 
World Trade Center evacuation effort. Donnie was married with 
two young children. His wife, Jeannine, was pregnant with a 
third child. Nothing could make up for the loss of Donnie to 
his family and that void will never be filled.
    But as a vice president of my union, it pleases me to see 
that Jeannine does not have to worry about paying bills or 
providing health care for her children due in large part to the 
benefits my union has negotiated for our membership.
    I also want to take this opportunity to address members of 
this committee and the Congress who believe that granting 
collective negotiation rights to police officers represents a 
danger to national security.
    The vast majority of the then 1,000 police officers in my 
agency worked steady 8-hour tours on a 4-day-on-2-day-off 
schedule. We had up to 6 weeks of vacation and additional 
personal leave time. By the end of the day on September 11, the 
Port Authority Police Department switched every member in my 
department to 12-hour tours, 7 days a week. Vacation and 
personal leave time were cancelled.
    My union did not file any grievances regarding these 
changes. Everyone recognized this was a crisis and emergency 
measures needed to be resorted to. Our schedule did not return 
to normal for nearly 3 years.
    The bottom line is that, even in states with long and 
strong histories of collective negotiation rights for public 
safety personnel, management retains discretion to respond to 
emergencies and potential security risks without negotiation 
with employees.
    As the health risks associated with exposure to the World 
Trade Center site following 9/11 become more manifest, I am 
protected by my union's efforts to ensure that workers in the 
rescue and recovery effort are properly monitored and treated 
for exposure-related diseases that do occur.
    Employers cannot be permitted to act unchecked because they 
do not place workers' interests first. For example, the city of 
New York has repeatedly denied that any of its police officers, 
firefighters, EMS personnel or other city workers were sickened 
by exposure to the World Trade Center site.
    My own agency has resisted classifying legitimate exposure 
diseases as injuries in the line of duty. I was exposed that 
day and continued to be exposed for more than 1,000 hours in 
the months afterwards as part of the Ground Zero recovery 
effort.
    It is time for the Congress to step up to the plate and act 
in a comprehensive fashion to mandate collective bargaining in 
states which do not have it. This legislation would allow law 
enforcement officers to negotiate on working conditions, to 
seek better salaries, benefits and training, to protect their 
families and the public. Most importantly, it would allow 
public safety officers to negotiate the necessary protections 
that will permit them to walk unselfishly into the line of fire 
to save the lives of our fellow citizens.
    Thank you for this opportunity to speak to you on behalf of 
America's rank-and-file law enforcement officers.
    [The statement of Mr. Nunziato follows:]

  Prepared Statement of Paul Nunziato, Vice President, Port Authority 
 Police Benevolent Association, Member, National Association of Police 
                          Organizations (NAPO)

    Good Afternoon Chairman Andrews, Ranking Member Kline, and members 
of the Subcommittee. My name is Paul Nunziato and I am a Police Officer 
with the Port Authority of New York and New Jersey Police Department. I 
also serve as the Vice-President of the Port Authority Police 
Benevolent Association (PBA), which is a member organization of the 
National Association of Police Organizations (NAPO). NAPO represents 
approximately 238,000 sworn law enforcement officers throughout the 
United States.
    State and local public safety officers play a crucial role in our 
nation's counterterrorism and homeland security efforts. They are the 
first to respond to terrorist attacks, natural disasters and other mass 
casualty events as evidenced by the tragic events of September 11th.
    Congress has long recognized the benefits of a cooperative working 
relationship between labor and management. Over the years, Congress has 
extended collective bargaining rights to public employees including 
letter carriers, postal clerks, public transit employees, and even 
Congressional employees. However, under current federal and state laws, 
some public safety employees, including law enforcement, corrections, 
and fire, are denied the basic rights of collective bargaining. Law 
enforcement officers put their lives on the line every day to preserve 
the security and peace that our nation enjoys. It is wrong that many of 
these same officers are denied the basic American rights of collective 
bargaining for wages, hours, and safe working conditions.
    I believe that collective bargaining rights are crucial to the 
protection of the health and welfare of public safety officers and 
their families. I base that upon my own experience as a police officer 
working for an agency directly impacted by the worst terrorist attack 
in this nation's history. On September 11, 2001 the World Trade Center, 
the headquarters of the Port Authority of New York and New Jersey and 
worldwide symbol of New York and America was attacked.
    Only 10 Port Authority police officers were working at the World 
Trade Center police command at the time of the terrorist attacks on 
September 11th. Within minutes of the attacks, police officers from 
throughout our job mobilized from all thirteen police commands to 
respond to the attacks. I myself responded from home and was mobilized 
from my command, PATH, a subway system running between New York and New 
Jersey. Of the 23 members of my roll call at the PATH police command 
that day, 10 came home. The Port Authority Police Department suffered 
the worst single day loss of life of any law enforcement agency in the 
history of the United States. Despite the tremendous risks, I can 
definitively state that no Port Authority police officer refused an 
order to respond to the World Trade Center or to enter the towers on 
September 11th.
    Unfortunately, I have direct knowledge that our collective 
bargaining agreement provides security to our members and their 
families. My partner, Donald McIntyre, was one of 37 members of my 
police department who lost their lives in the World Trade Center 
evacuation effort. Donnie was married with two young children; His 
wife, Jeannine, was pregnant with a third child. Nothing could make up 
for the loss of Donnie to his family and that void will never be 
filled. But as a Vice-President of my union, it pleases me to see that 
Jeannine does not have to worry about paying bills or providing 
healthcare for her children due in large part to the benefits my union 
has negotiated for our membership.
    I also want to take this opportunity to address members of this 
Committee and the Congress who believe that granting collective 
negotiation rights to police officers represents a danger to national 
security. The vast majority of the then 1,000 police officers in my 
agency worked steady 8 hour tours on a 4 day on 2 day off schedule. We 
had up to 6 weeks of vacation and additional personal leave time. By 
the end of the day on September 11th, the Port Authority Police 
Department switched everyone in the Department to 12 hour tours, 7 days 
a week. Vacations and personal leave time were cancelled. My union did 
not file any grievances regarding these changes. Everyone recognized 
that this was a crisis and that emergency measures needed to be 
resorted to. Our schedule did not return to normal for nearly 3 years. 
The bottom line is that, even in states with long and strong histories 
of collective negotiation rights for public safety personnel, 
management retains discretion to respond to emergencies and potential 
security risks without negotiation with employees.
    As the health risks associated with exposure to the World Trade 
Center site following 9-11 become more manifest, I am protected by my 
union's efforts to ensure that workers in the rescue and recovery 
effort are properly monitored and treated for exposure related diseases 
that do occur. Employers cannot be permitted to act unchecked because 
they do not place workers' interests first. For example, the City of 
New York repeatedly has denied that any of its police officers, 
firefighters, EMS personnel or other city workers were sickened by 
exposure to the World Trade Center site. My own agency has resisted 
classifying legitimate exposure diseases as injuries in the line of 
duty. I was exposed that day and continued to be exposed for more than 
a thousand hours in the months afterward as part of the Ground Zero 
recovery effort.
    It is time for the Congress to step up to the plate and act in a 
comprehensive fashion to mandate collective bargaining in states which 
do not have it. This legislation would allow law enforcement officers 
to negotiate on working conditions and to seek better salaries, 
benefits, and training, to protect their families and the public. Most 
importantly, it will allow public safety officers to negotiate the 
necessary protections that will permit them to walk unselfishly into 
the line of fire to save the lives of our fellow citizens.
    Thank you for this opportunity to speak to you on behalf of 
America's rank and file law enforcement officers. I ask that my printed 
testimony be made part of the record, and I would be happy to answer 
any questions you may have.
                                 ______
                                 
    Chairman Andrews. Thank you. Thank you very much. And I 
think we speak for the entire subcommittee when we say we have 
profound respect for the men and women of your department and 
the profound loss that you suffered on that day. Being from New 
Jersey, I know some of the families myself that were affected, 
and it is a loss that we will feel forever. We appreciate your 
testimony very much.
    Mr. Nunziato. Thank you, sir.
    Chairman Andrews. Mr. Reichenberg, we are happy to have you 
with the committee, and you are recognized.

      STATEMENT OF NEIL REICHENBERG, EXECUTIVE DIRECTOR, 
INTERNATIONAL PUBLIC MANAGEMENT ASSOCIATION FOR HUMAN RESOURCES

    Mr. Reichenberg. Thank you, Mr. Chairman, Congressman Kline 
and members of the subcommittee.
    I am here today on behalf of the International Public 
Management Association for Human Resources and the 
International Municipal Lawyers Association to express our 
concerns with H.R. 980. Issues such as collective bargaining 
are of great importance to our members because they are at the 
forefront of implementing such laws as H.R. 980.
    Our associations recognize the important role that public 
safety employees have in providing vital services to citizens 
on a routine basis as well as their role as first responders in 
the event of a terrorist attack for natural disaster. We are 
not opposed to collective bargaining at the state and local 
government, but firmly believe that state and local governments 
are in the best position to determine the nature and extent of 
collective bargaining rights.
    We do not believe that a federal one-size-fits-all solution 
will improve the working conditions or the services provided by 
firefighters, police and emergency medical personnel, all of 
which are conducted in accordance with unique local conditions, 
governmental structures and revenue assistance.
    We also believe that the proposed legislation raises 
serious constitutional issues.
    I would like to highlights three points that are made in 
our written statement.
    First, I would like to point out that federalizing 
collective bargaining is no guarantee of labor-management 
cooperation. The introduction to H.R. 980 states that 
collective bargaining is necessary to foster trust, mutual 
respect, open communications, bilateral, consensual problem 
solving, and shared accountability. While noble goals, it is 
unlikely that federalizing collective bargaining will 
necessarily achieve them.
    For many years, IPMAHR worked with employer associations 
and public-sector unions as part of the Public-Sector Labor-
Management Committee. The committee was established to promote 
public-sector labor-management cooperation. As a member of the 
group's steering committee, IPMAHR encouraged labor-management 
cooperation in the public sector, and while there are many 
examples of successes, compared to the large number of 
jurisdictions, it was anything but a common practice.
    Contentious labor-management relations are a fact of life 
in many public-sector organizations. While there is shared 
responsibility for this, we question the assumption underlying 
this legislation that federalizing these basic state and local 
governmental functions is the only way to achieve labor-
management cooperation and harmonious relations.
    Second, we believe the law is unnecessary because states 
and localities already have bargaining rights in most 
instances. The underlying assumption of H.R. 980 is that a 
federally mandated collective bargaining bill is necessary to 
protect the rights of police, fire and emergency medical 
services personnel, but the facts show that state and local 
governments are in the best position to determine collective 
bargaining rights. Where collective bargaining is not formal, 
public safety personnel often negotiate through associations.
    In addition, public safety employees, unlike their private-
sector counterparts, are protected by due process rights 
contained in the Constitution and are covered under existing 
civil service laws.
    Third, federal preemption of state and local laws will be 
confusing and will take away state and local governments' 
ability to allocate resources. H.R. 980 as written would give 
substantial authority to the FLRA over public-sector collective 
bargaining. The FLRA would be tasked with deciding whether or 
not state laws meet federal requirements and to create 
regulations to govern the process if the FLRA determines the 
state law is inadequate.
    H.R. 980 is ambiguous because it is not entirely clear what 
criteria the FLRA would use to determine whether or not a 
state's laws are substantially adequate. We are concerned that 
in making the determination as to the adequacy of state laws, 
the legislation would require the FLRA to ``consider and give 
weight to the maximum extent practicable'' to the opinion of 
the unions. This does not seem to reflect the neutral oversight 
which this legislation presumes to reflect.
    We also question whether the FLRA has the knowledge and 
capacity to manage collective bargaining for multiple state and 
local governments. The FLRA is a beleaguered agency as 
evidenced by the 2007 Best Places to Work rankings of federal 
agencies that was produced by the Partnership of Public Service 
and the American University Institute for the Study of Public 
Policy Implementation and ranked the FLRA a distant last among 
the small federal agencies based on employee engagement and 
satisfaction. The FLRA also was last in the 2005 rankings.
    Mandating all collective bargaining here in Washington may 
not be the best answer. What firefighters, police and emergency 
medical services personnel need in Louisiana is likely to 
differ greatly from New York as will the state's available 
resources to pay for and fund their public safety departments. 
Federalizing collective bargaining by establishing uniform 
national standards could have the impact of being less 
efficient and effective than state laws.
    If the legislation is enacted into law, how will the 
Congress respond when the unions representing teachers and 
other public-sector organizations say, ``Me too,'' and request 
similar legislation?
    I will stop there and be pleased to respond to any 
questions. Thank you.
    [The statement of Mr. Reichenberg follows:]

    Prepared Statement of Neil E. Reichenberg, Esq., CAE, Executive 
    Director, International Public Management Association for Human 
                          Resources (IPMA-HR)

    Mr. Chairman and members of the Committee, I am here today on 
behalf of the International Public Management Association for Human 
Resources (IPMA-HR) and the International Municipal Lawyers Association 
(IMLA) to express our concern with H.R. 980. Together IPMA-HR and IMLA 
represent millions of government employees. IPMA-HR is a professional 
association comprised of human resources practitioners in federal, 
state and local government. IMLA represents lawyers working in local 
government and local government organizations. Issues such as 
collective bargaining are of great importance to our members because 
they are at the forefront of implementing such laws as H.R. 980.
    IPMA-HR is familiar with the Public Sector Employer-Employee 
Cooperation Act and we participated with several local government 
groups in presenting testimony in 1999 discussing an earlier draft. 
IPMA-HR and IMLA have a long history of working with public sector 
unions on issues of mutual concern and in promoting labor-management 
cooperation.
    IPMA-HR and IMLA recognize the important role that public safety 
employees have in providing vital services to citizens on a routine 
basis as well as their role as first responders in the event of a 
terrorist attack or natural disaster. We are not opposed to collective 
bargaining at the state and local government level but firmly believe 
that state and local governments are in the best position to determine 
the nature and extent of collective bargaining rights. We do not 
believe a federal ``one size fits all'' solution will improve the 
working conditions or the services provided by firefighters, police and 
emergency medical personnel, all of which are conducted in accordance 
with unique local conditions, governmental structures and revenue 
systems. We also believe that the proposed legislation raises serious 
constitutional issues.
Federalizing Collective Bargaining Is No Guarantee of ``Cooperation''
    The introduction to H.R. 980 includes a list of findings and a 
declaration of purpose. The first finding states that, ``Labor-
management relationships and partnerships are based on trust, mutual 
respect, open communication, bilateral consensual problem solving, and 
shared accountability. In many public safety agencies it is the union 
that provides the institutional stability as elected leaders and 
appointees come and go.''
    While fostering labor management relationships is a noble goal, it 
is unlikely that federalizing collective bargaining will achieve it. 
Oftentimes even where collective bargaining rights are well 
established, the relationship is not characterized by trust and open 
communication and it is unclear how giving the Federal Labor Relations 
Authority (FLRA) authority over states and local government collective 
bargaining is designed to achieve this goal.
    For many years IPMA-HR worked with employer associations and public 
sector unions as part of the Public Sector Labor-Management Committee. 
The Committee was established to promote public sector labor-management 
cooperation. As a member of the group's steering committee, IPMA-HR 
encouraged labor-management cooperation in the public sector and while 
there are many examples of successes, compared to the large number of 
jurisdictions--87,000 units of local government and 50 states--it was 
anything but a common practice.
    And, anecdotal research reveals that successful partnerships are 
often based on personalities and not on the presence of collective 
bargaining. Contentious labor-management relations are a fact of life 
in many public sector organizations. While there is shared 
responsibility for this, we question the assumption underlying this 
legislation that federalizing these basic local government functions is 
the only way to achieve labor-management cooperation and harmonious 
relations.
    A recent situation in St. Paul, Minnesota is instructive. 
Collective bargaining has been in place for many years but the 
situation between the fire chief and the firefighters union is 
described as ``acrimonious.'' In March 2007, the results of an audit 
were released that detailed the situation in the St. Paul Department of 
Fire and Safety Services (SPDFSS) which includes both fire and EMS 
personnel. The audit is available online at: http://www.stpaul.gov/
fireaudit/.
    The audit states:
    Organizationally, the SPDFSS is in a state of internal crisis. The 
problems have not yet affected delivery of service to the public but 
could easily do so if not addressed. Most of the internal tension is 
between the fire chief and the firefighters union (Local 21). A 2005 
survey conducted by the union determined that a majority of its members 
were critical of the Department's direction. The absence of trust 
between firefighters and the fire administration is a key factor 
affecting poor relations between labor and management. [See page 7 of 
the audit].
    The 305-page document describes just how bad the situation is: 
``The fire chief antagonizes the union by issuing orders that are an 
attempt perceived as to show his power. In response, the union 
encourages members to file grievances, contacts politicians about minor 
issues, and initiates legal actions that cost the city valuable staff 
time and money.'' There is nothing in the proposed legislation or in 
the mandating of federally supervised collective bargaining which would 
alleviate this situation.
The law is Unnecessary Because States and Localities Already Have 
        Bargaining Rights in Most Instances
    State and local governments are in the best position to determine 
collective bargaining rights. The underlying assumption of H.R. 980 is 
that a federally-mandated collective bargaining law is necessary to 
ensure the rights of police officers, firefighters and emergency 
medical services personnel. But, the facts show that state and local 
governments are capable of establishing collective bargaining rights 
and in fact have done so in the majority of states. Where collective 
bargaining is not formal, public safety personnel often negotiate 
through associations. In addition, public safety employees, unlike 
their private sector counterparts, are protected by due process rights 
in the Constitution and are covered under existing civil service laws.
    According to the Bureau of Labor Statistics report of January 25, 
2007, union membership in the public sector was substantially higher 
than in the private sector, with 41.9 percent of local government 
workers belonging to a union. ``This group includes several heavily 
unionized occupations, such as teachers, police officers, and 
firefighters.''
    According to the Government Accountability Office report on 
Collective Bargaining Rights: Information on the Number of Workers with 
and without Bargaining Rights, September 2002, 26 states and the 
District of Columbia have laws that provide collective bargaining 
rights to essentially all public employees. Another 12 states have laws 
that provide bargaining rights to specific groups of workers. Texas 
prohibits collective bargaining for most public employees but allows 
police and fire bargaining in jurisdictions with approval from a 
majority of voters.
    Even in the 11 states that do not have collective bargaining laws, 
most if not all have associations. Many localities within those states 
may also have their own associations or collective bargaining 
arrangements. A quick Internet search revealed firefighter associations 
in all 12 states and many localities within those states. In Little 
Rock, Arkansas, where there is no state collective bargaining law, the 
city has bargaining agreements with more than three-fourths of their 
employees; this has been the case for the past 20 years.
    The facts show that states and localities are capable of creating 
collective bargaining rights consistent with their own laws and 
government structures, including state constitutions, and that public 
safety officers are capable of forming unions and associations in the 
absence of federal legislation.
Federal Preemption of State and Local Laws Will be Confusing and Will 
        Take Away State and Local Government's Ability to Best Allocate 
        Resources
    H.R. 980, as written, would give substantial authority to the FLRA 
over public sector collective bargaining. The FLRA would be tasked with 
deciding whether or not state laws meet federal requirements and to 
create regulations to govern the process if the FLRA determines that 
the state law is inadequate.
    H.R. 980 is ambiguous because it is not entirely clear what 
criteria the FLRA would use to determine whether or not a state's laws 
are ``substantially'' adequate. We are concerned that in making the 
determination as to the adequacy of state laws, the legislation would 
require the FLRA to ``consider and give weight, to the maximum extent 
practicable,'' to the opinion of the unions. This does not seem to 
reflect the neutral oversight which this legislation presumes to 
reflect.
    We also question whether the FLRA has the knowledge and capacity to 
manage collective bargaining for multiple state and local governments. 
The FLRA is a beleaguered agency as evidenced by the 2007 Best Places 
to Work rankings of federal agencies that was produced by the 
Partnership for Public Service and the American University Institute 
for the Study of Public Policy Implementation and ranked the FLRA last 
among the small federal agencies based on employee engagement and 
satisfaction.
    Although supporters of H.R. 980 have said that the bill would have 
a minimal impact on state and local government collective bargaining, 
it is not at all clear from the way the bill is written. For instance, 
the bill requires states to provide for bargaining over hours, wages 
and terms and conditions of employment. Hours and wages are regulated 
now by a variety of federal, state, and local laws and require 
coordination, at the very least, with revenue authority. ``Terms and 
conditions of employment'' is even less clear. Does it include the type 
of safety gear, minimum staffing standards, or something else?
    In Oregon, the state legislature just finished a contentious debate 
over whether or not minimum staffing levels and overtime could be 
included in collective bargaining. The result is that beginning in 
2008, those issues will be included in collective bargaining if they 
have an impact on on-the-job safety (or a significant impact in the 
case of minimum staffing levels). This was one of the most hotly 
debated issues in the legislature this year and individuals, 
associations, and firefighters weighed in. The fact that the Oregon 
legislature reached a compromise is significant for two reasons.
    First, it argues against the need for H.R. 980 at all. Firefighters 
in Oregon did not need any federal legislation to resolve an issue and 
the state was able to reach a successful compromise. Second, to the 
extent the compromise took into consideration the allocation of scarce 
local resources and allowed Oregon to consider the successes and 
failures in other states it would seem best to leave such important 
decision making to the states and localities that will have to live 
with and fund the consequences.
    Mandating all collective bargaining here in Washington, D.C. may 
not be the best answer. What firefighters, police and emergency medical 
services personnel need in Louisiana is likely to differ greatly from 
New York, as will the states' available resources to pay for and fund 
their public safety departments. And, federalizing collective 
bargaining by establishing uniform, national standards could have the 
impact of being less efficient and effective than state and local laws.
    For instance, Montgomery County, Maryland has longstanding 
collective bargaining relationships and has fostered a spirit of 
partnership with labor unions representing its public safety employees 
according to Joe Adler, director of the Office of Human Resources, 
Montgomery County. In the county, unfair labor practice issues and 
negotiability issues are resolved by the county's permanent umpire/
labor relations administrator sometimes within days and generally 
within a few weeks. Mr. Adler notes that in the federal sector it has 
taken the FLRA sometimes years to issue decisions in certain unfair 
labor practice cases. Should H.R. 980 change the impasse resolution 
mechanism in Maryland and in other jurisdictions like it, it may not be 
an improvement.
    Although bill supporters have argued that the cost will be minimal, 
that is not certain. State and local governments, at a minimum, will 
have to hire additional personnel to ensure that their laws meet 
federal standards, and the costs could be enormous if state and local 
governments can no longer make the decisions of how to best allocate 
scarce resources. If the result of collective bargaining requires 
hiring more staff or purchasing more equipment, this will require a 
great deal of money and to that extent is an unfunded mandate. 
Furthermore, H.R. 980 is unclear on the issue of volunteer fire 
departments. Will they be covered? If so, this will be an additional 
cost and unfunded mandate on state and local governments.
    If this legislation is enacted into law, how will the Congress 
respond when the unions representing teachers and other public sector 
occupations request similar legislation? Does the Congress intend to 
have the federal government mandate collective bargaining and establish 
federal standards that would apply throughout state and local 
government?
H.R. 980 Raises Serious Constitutional Issues
    Finally, H.R. 980 raises serious Constitutional concerns. These 
issues were raised during the 2000 hearing on the same bill and we 
believe they deserve your consideration today. The Supreme Court has 
issued several opinions during the last decade that call into question 
the power of Congress to subject state and local governments to federal 
regulation.
    The Supreme Court has in recent years limited the authority of 
Congress to pass laws abrogating states' immunity from lawsuits. In the 
case Seminole Tribe of Florida v. Florida, 517 U.S. 44 (1996), the 
Court ruled that the Commerce Clause does not give Congress the 
authority to abrogate a state's Eleventh Amendment immunity to suit. 
Subsequent Supreme Court decisions have found states immune from suit 
under employment-related laws such as the Fair Labor Standards Act 
(FLSA), in Alden v. Maine, 527 U.S. 706 (1999), and the Americans with 
Disabilities Act (ADA) in Board of Trustees of the University of 
Alabama et al. v. Garrett et al., 531 U.S. 356, 369 (2001).
    Other Supreme Court opinions call into question the authority of 
Congress to pass laws affecting state and local activity. In U.S. v. 
Lopez, 514 U.S. 549 (1995), the Court found Congress exceeded its 
authority under the Commerce Clause in passing the Gun-Free School 
Zones Act of 1990, and in the case Flores v. City of Boerne, 521 U.S. 
507 (1997), the Court found that Congress exceeded its power under 
Section 5 of the Fourteenth Amendment in passing the Religious Freedom 
Restoration Act (RFRA). Congress's authority to enact H.R. 980 is 
highly questionable.
    For the reasons contained in this testimony, we would urge the 
Subcommittee not to mandate collective bargaining for public safety 
employees. IPMA-HR and IMLA appreciate the opportunity to present our 
concerns with H.R. 980.
                                 ______
                                 
    Chairman Andrews. Thank you very much for your testimony.
    I did also want to mention that another group of people who 
have a very, very difficult and crucial public safety job--we 
have some representatives--are corrections officers who are 
represented by AFSCME who are here today, and we thank them for 
their very difficult service. And, frankly, I believe they 
deserve the protections of this proposal as well and would 
receive it.
    Mayor Seybold, I will tell you there was some heated debate 
about whether to invite you today because, although we were 
impressed by the sports deal, we did note for the record that 
you defeated when you ran for office a Democratic incumbent by 
a 62-to-38 margin.
    So we are glad that you are here, but putting partisanship 
aside, I would say to you that I think that your presence here 
today as a devout Republican shows that this is not an 
ideological issue but a practical one.
    We welcome you to the committee.

   STATEMENT OF HON. WAYNE W. SEYBOLD, MAYOR, MARION, INDIANA

    Mr. Seybold. Thank you. Thank you very much, Mr. Chairman 
Andrews and Ranking Member Mr. Kline and members of the 
subcommittee. I am happy to be here, too, on a bipartisan 
effort.
    With me today, I have our fire chief, Steve Gorrell; our 
assistant union chief, Jamie Littick; and Tom Hanify, who heads 
the firefighters union for the state of Indiana.
    Marion, Indiana, is a community of approximately 32,000 and 
has faced numerous economic challenges. With the closing of one 
of our largest manufacturing plants, everyone in our community 
was touched by it in one way or another. At a critical moment, 
the private sector, the nonprofit sector and our labor unions 
stepped up to the plate to turn the community around.
    The city of Marion's collective bargaining units were part 
of that team and were willing to make sacrifices for the 
betterment of the community. My first negotiations with the 
units started by my indication that pay raises would not be 
happening at that time. One would think that the negotiations 
would have ended at that point. However, our units expressed an 
understanding and agreed to be our partners.
    Since our first negotiation, the city and our collective 
bargaining units have maintained an incredibly positive 
relationship. In order for employer-management relationships to 
be productive, there must be a trust and mutual respect. Both 
must be willing to keep lines of communication open. Most 
specifically, public safety employer-employee cooperation is 
essential. They are the front lines of defense for our 
community, and they deserve the right to discuss workplace 
issues with their employer.
    An example of a success story is best depicted by our 
relationship with our Marion Fire Department. After being hit 
with years of political backlash, this group was anything but 
trusting in the beginning. They came to the table asking for a 
lot more than we could provide, but instead of getting 
frustrated, they asked if they could come back with a potential 
win-win solution for everyone.
    Understanding that our way is not the only way and that we 
do make mistakes, we encouraged them to do their homework. They 
came back with their presentation, which was very creative and 
impressive to say the least. Instead of raises, they opted to 
have the city pay more of their share toward their pension. An 
agreement was reached, approved by the union, and ratified by 
the council.
    While many not always agree, one thing that we know is that 
there is a sense of trust and respect that has evolved. This 
type of relationship gives the employees a sense of ownership 
and importance. By promoting such cooperation, our community 
enjoys a more effective and efficient delivery of emergency 
systems. Because of our relationship with our collective 
bargaining units, we have built the city's cash reserves from 
nearly nothing to over $7 million, and this year, we are happy 
to announce that we are going to reduce our tax rate by almost 
2\1/2\ cents.
    Everyone benefits when there is a good relationship between 
employer and labor-management. We are proud to stand alongside 
and support our local firefighters and our state firefighters, 
ensuring that they have the opportunity to bargain for 
workplace issues and resolve issues regarding the duty of 
bargaining in good faith.
    The Marion Fire Department has assisted in numerous 
fundraising activities with Fill the Boot programs. These 
programs have provided monetary assistance to numerous 
nonprofit organizations. And because of these types of things 
that our fire departments do, they have helped us reduce our 
taxes and helped us not have to spend tax dollars in order to 
do things like build a new humane society.
    The Marion Fire Department is constantly looking for new 
ways and innovative ways to relieve the burden of taxpayers. By 
applying for grants for equipment, they have helped us reduce 
our budget in that way.
    Marion firefighters are a group of very dedicated 
professionals who are committed to the citizens of Marion and 
Grant County. Any assistance that you could provide them and 
public safety officers around the United States would be 
greatly appreciated.
    Thank you for your time and support in this important 
matter, and I would be happy to address any questions later. 
Thank you.
    [The statement of Mayor Seybold follows:]

  Prepared Statement of Hon. Wayne W. Seybold, Mayor, Marion, Indiana

    Good afternoon, my name is Wayne W. Seybold and I am the Mayor of 
Marion, Indiana. I would like to thank the Chairman and members of the 
Subcommittee for inviting me to testify today.
    Marion, Indiana, a community of approximately 32,000 citizens, has 
faced numerous economic challenges within my first term of office. With 
the closing of one of our largest manufacturing plants, everyone within 
our community was touched by it in one way or another. At that critical 
moment, the private/public sector, not-for-profit and labor unions 
stepped up to the plate to turn our community around.
    The City of Marion's collective bargaining units were a part of 
that team that were willing to make sacrifices for the betterment of 
the community. My first negotiations with the units started by my 
indication that pay raises were not an option at that time. One would 
think that the negotiations would have ended at that point. However, 
our units expressed their understanding and agreed to partner with us.
    Since our first negotiation, the City and our Collective Bargaining 
Units have maintained an incredibly positive relationship. In order for 
employer management relationships to be productive, there must be trust 
and mutual respect. Both must be willing to keep lines of communication 
open. More specifically, public safety, employer/employee cooperation 
is essential. They are the front line defense for our communities, and 
deserve the right to discuss workplace issues with their employer.
    An example of a success story is best depicted by our relationship 
with the Marion Fire Department. After being hit with years of 
political backlash, this group was anything but trusting in the 
beginning. They came to the table asking for a lot more than we could 
agree to, but instead of getting frustrated they asked if they could 
come back with a potential win-win solution for everyone. Understanding 
that our way is not the only way, nor always the best way, we 
encouraged them to do their homework. They came back with their 
presentation, which was very creative and impressive to say the least. 
Instead of raises, they opted to have the City pay more of their share 
toward their pension. An agreement was reached, approved by the Union, 
and submitted to the council.
    While we may not always agree, one thing we now know is that there 
is a sense of trust and respect that has evolved. This type of 
relationship gives the employees a sense of ownership and importance. 
By promoting such cooperation, our community enjoys a more effective 
and efficient delivery of emergency services. Because of our 
relationship with our collective bargaining units, we have built the 
city's cash reserves up from nearly nothing to almost seven million 
dollars. Everyone benefits when there is a good relationship between 
employer and labor management team. We are proud to stand along side 
and support our local and state firefighters in ensuring that they have 
the opportunity to bargain for workplace issues and resolve issues 
regarding the duty of bargaining in good faith.
    The Marion Fire Department has assisted in numerous fundraising 
activities with their ``Fill the Boot'' program. This program has 
provided monetary assistance to numerous not-for-profit organizations. 
This assistance allows these entities to continue to provide services 
to those who need it in the community. The Grant County Cancer Society 
benefits from this program in a great way. The money raised allows for 
important research and development strategies. The program has also 
assisted the local humane society raise money to properly care for the 
vast number of abandoned animals. The local humane society is in dire 
need of a new facility, and the Marion Firefighters have agreed to 
donate their time to help build it. The willingness to give up their 
personal time to help build the new humane society will be of great 
benefit to taxpayer's money.
    The Marion Fire Department is constantly searching for new and 
innovative ways to help relieve the burden of the taxpayers. An example 
of this is the way the firefighters showed initiative to apply for 
grants to purchase equipment. In this effort, over the last three 
years, the department was awarded over $200,000.00 in grant money.
    Marion Firefighters are a group of very dedicated professionals who 
are committed to the citizens of Marion and Grant County. Any 
assistance that you could provide would be greatly appreciated.
    Thank you for your time and attention to this very important 
matter. I would be more than happy to address any questions the 
subcommittee may have for me.
                                 ______
                                 
    Chairman Andrews. Mayor, thank you very much for your 
service and for your testimony.
    I always say that local mayors and council people, I think, 
have one of the hardest jobs in government, that we get stopped 
in the supermarket and somebody asks us about a foreign policy 
question or the estate tax or something. I know you get stopped 
and asked about leaf pickup and snow removal, and you have to 
deal with their problems right away.
    So I have profound respect for mayors of all political 
backgrounds. We are glad that you are here today.
    Mr. Seybold. Well, thank you very much.
    Chairman Andrews. Mr. Clark, welcome to the subcommittee. 
You are recognized for 5 minutes.

 STATEMENT OF R. THEODORE CLARK, JR., PARTNER, SEYFARTH SHAW, 
                              LLP

    Mr. Clark. Thank you.
    Mr. Chairman and members of the committee, today I am 
testifying on behalf of the National Public Employer Labor 
Relations Association, an association of over 3,000 labor-
management professionals employed by federal, state and local 
governments who negotiate public safety contracts in 45 states.
    At the outset, let me emphatically state that I support 
collective bargaining for public safety employees. I have 
negotiated hundreds of contracts covering police and fire 
bargaining units, and I urged the Illinois legislature to enact 
a public-sector collective bargaining law, something that 
finally occurred in 1983.
    Thus, my opposition to H.R. 980 is not because I oppose 
collective bargaining for public safety employees, but because 
I believe that H.R. 980 will preempt numerous state laws and 
will result in a wholly unwarranted intrusion by the federal 
government into matters that should best be left to the states.
    Under H.R. 980, if the FLRA determines that a state law 
does not substantially provide for the rights and 
responsibilities set forth in the act, then that state is 
subjected to a mandatory labor relations scheme administered by 
the FLRA. As a result of the act's very broad definition of 
what must be negotiated, the exclusions from the scope of 
bargaining set forth in most state laws will likely result in 
those laws not meeting the ``substantially provides'' test.
    Some examples: New York prohibits negotiations over 
pensions. The Michigan constitution specifically excludes 
promotions from the scope of bargaining for state police. The 
Wisconsin statute covering state employees prohibits bargaining 
over the policies, practices and procedures of the civil 
service merit system relating to such things as promotions and 
the state's job evaluation system.
    If a state statute flunks the ``substantially provides'' 
test, then the affected state will either have to amend its law 
or, in the case of Michigan, amend its constitution to delete 
such exclusions or involuntarily be subjected to the FLRA's 
labor relations provisions, and that this will create 
substantial friction between the federal government and several 
states should be clear to all.
    To make matters worse, the act requires that the FLRA, in 
making ``substantially provides'' determinations, must consider 
and give weight to the maximum extent practicable to the 
opinion of affected employee organizations. Since it is state 
laws that might well be invalidated, one can only wonder why 
the views of the states are being subordinated to the views of 
organized labor.
    And to add insult to injury, the FLRA's final order with 
respect to questions of fact and law is conclusive, unless the 
court determines that the decision was arbitrary and 
capricious. That the deck is being stacked against the states 
seems obvious.
    Lest anyone think that the states have not done anything in 
this area, let's look at a few facts. Thirty-eight states have 
labor laws covering both firefighters and/or police officers. 
Virtually all of those laws go far beyond the law covering 
firefighters and police officers employed by the federal 
government.
    In most states without laws, collective bargaining is 
legal, and many public employers, presumably including Marion, 
in those states have entered into contracts with police and 
fire unions. Over 68 percent of all firefighters and over 58 
percent of all police officers are union members. I believe 
that these facts strongly suggest that there is no compelling 
need for H.R. 980.
    Since the asserted need for H.R. 980 is predicated in major 
part on the essential role that public safety officers play in 
the efforts of the United States to detect, prevent and respond 
to terrorist attacks, one must wonder why Congress and every 
president since Jimmy Carter has decided to exempt from 
collective bargaining untold thousands of federal employees who 
would be considered public safety officers under H.R. 980.
    For example, employees at the FBI, CIA, NSA, DEA and 
countless other federal agencies have been excluded from 
coverage under the labor relations provisions of the Civil 
Service Reform Act, and those that are covered, Congress has 
said they have no right to negotiate over wages, pensions and 
health benefits. Rather, Congress has decided that those are 
among the topics that should be set by Congress and not be 
subject to collective bargaining since the states should have 
the same discretion to make similar policy determinations.
    Thank you very much.
    [The statement of Mr. Clark follows:]

 Prepared Statement of R. Theodore Clark, Jr., Partner, Seyfarth Shaw, 
    LLP, on Behalf of the National Public Employer Labor Relations 
                          Association (NPELRA)

    Today, I am speaking on behalf of the National Public Employer 
Labor Relations Association (NPELRA). The National Public Employer 
Labor Relations Association (NPELRA), established in 1970, is the 
professional association for practitioners of labor and employee 
relations employed by federal, state and local governments, school and 
special districts.
    H.R. 980, the so-called Public Safety Employer-Employee Cooperation 
Act of 2007, is predicated on the apparent assumption that federally 
mandated solutions in the labor relations area are better than those 
arrived at by state and local governments. The needs of state and local 
government in the area of employer-employee relations, however, can 
best be determined on a state and local basis rather than by resort to 
federal legislation.
    Lest there be any mistake about my position, let me emphatically 
state that I wholeheartedly support collective bargaining in the public 
sector where a majority of the employees in an appropriate bargaining 
unit have opted to be represented for the purposes of collective 
bargaining. I have participated in the negotiation of literally 
hundreds of public sector collective bargaining agreements covering 
police officers and firefighters over the years. At last count, I have 
represented public employers with respect to collective bargaining and 
employment law issues in over 30 states, from the State of Minnesota to 
the State of Louisiana and from the State of Washington to the State of 
Florida. Moreover, I worked for many years in support of the enactment 
of public sector collective bargaining legislation in Illinois,\1\ 
something that finally occurred in 1983, when the Illinois General 
Assembly enacted the two basic public sector labor laws that cover 
public employees in Illinois. As a result, my opposition to federal 
collective bargaining legislation such as H.R. 980 is not because I 
oppose public sector collective bargaining, but rather because of my 
firm belief that the enactment of a federal collective bargaining law 
would severely limit the demonstrated innovative and creative abilities 
of the states and local jurisdictions to deal in a responsible manner 
with the many complex issues that public sector collective bargaining 
poses.
H.R. 980 would displace State and local options in determinining how 
        employment relations should be structured for police officers 
        and firefighters employed by States and units of local 
        government
    The apparent premise upon which H.R. 980 has been drafted is that 
there should be one monolithic model for how employment relations for 
police officers and firefighters should be handled at the state and 
local level. Thus, if the Federal Labor Relations Agency (``FLRA'') 
determines that a state law does not ``substantially provide for the 
rights and responsibilities described in Section 4(b) of the Act,'' 
then that state is subjected to the labor relations scheme established 
pursuant to rules issued and administered by the FLRA.\2\
    At the outset, it is important to note that the standard by which 
state legislation is to be judged by the FLRA is quite similar to a 
provision in the National Labor Relations Act (``NLRA'') that gives the 
NLRB the authority to cede jurisdiction to state agencies as long as 
the State's legislation is not ``inconsistent'' with the provisions of 
the NLRA.\3\ Although several states, including New York, Wisconsin and 
Michigan, have private sector legislation that closely parallel the 
NLRA, the NLRB has repeatedly refused to cede jurisdiction to the state 
boards in those states. Given the unwillingness of the NLRB to find 
state statutes to be consistent with the NLRA, it is clearly open to 
substantial doubt as to whether the FLRA would be willing to find that 
a state public sector collective bargaining statute ``substantially 
provides'' for the rights and responsibilities set forth in H.R. 980. 
Nor do you have to just take my opinion on this very important issue. 
When Congress held hearings in 1972 on proposed federal public sector 
collective bargaining legislation that would be applicable at the state 
and local level, Arvid Anderson, a former member of the Wisconsin 
Employment Relations Commission and the then Chairman of the Office of 
Collective Bargaining in New York City, testified as follows:
    ``[T]he experience of the administration of the Labor Management 
Relations Act by the National Labor Relations Board throughout its 
entire history demonstrates conclusively that a Federal administrative 
agency will, if left to its own discretion, refuse to cede to any 
competent state authority administration over any phase of its 
statute.'' \4\
    Given Arvid Anderson's observations, it is probable that most, if 
not all, state enactments covering police officers and firefighters 
would not meet the ``substantially provides'' test. Several examples 
illustrate the problem.
    Perhaps the best examples of the impact of H.R. 980 on existing 
state laws is the likely interpretation of the term ``hours, wages, and 
terms and conditions of employment,'' i.e., the scope of mandatory 
bargaining specified in Section 4(b)(3). Take the issue of pensions. 
Normally, the pensions are considered a form of compensation and thus 
fall within the mandatory scope of bargaining.\5\ Because of the 
enormous costs that have ensued as a result of negotiations over public 
sector pensions, a number of states have specifically excluded pensions 
from the scope of bargaining. For example, the New York Taylor Law 
specifically provides that the scope of negotiations ``shall not 
include any benefits provided by or to be provided by a public 
retirement system, or payments to a fund or insurer to provide an 
income for retirees, or payment to retirees or their beneficiaries'' 
and that ``[n]o such retirement benefits shall be negotiated pursuant 
to this Article, and any benefits so negotiated shall be void.'' \6\ It 
was the near bankruptcy of New York City and several other New York 
cities in the late 1970's, brought on in part by overly generous 
negotiated increases in pension benefits, that prompted the New York 
legislature to adopt this ban on negotiations over pensions. Under H.R. 
980, however, the federal law would presumably preempt inconsistent 
state law.
    Like New York, virtually every state collective bargaining statute 
provides for some limitation on the scope of bargaining. The following 
are but a few of the numerous examples that could be provided:
    <bullet> The Illinois statute covering police and firefighters 
specifically excludes from the mandatory scope of negotiations 
residency requirements in the City of Chicago, ``the type of equipment, 
other than uniforms [and turnout gear for firefighters] issued or 
used,'' ``the total number of employees employed by the department,'' 
and ``the criterion pursuant to which force, including deadly force, 
can be used.'' In addition, for police the subject of manning is 
removed from the mandatory scope of negotiations.\7\
    <bullet> The Maine statute covering state employees provides that 
negotiations over the state's compensation system for such things as 
the ``number of and spread between pay steps within pay grades'' and 
the ``number of and spread between pay grades with the system'' ``may 
not be compelled by either the public employer or the bargaining agents 
sooner than 10 years after the parties' last agreement to revise the 
compensation system pursuant to a demand to bargain.'' \8\
    <bullet> The Michigan Constitution specifically excludes the 
subject of promotions from the scope of bargaining for state police 
troopers and sergeants and provides instead that promotions ``will be 
determined by competitive examination and performance on the basis of 
merit, efficiency and fitness.'' \9\
    <bullet> The Nevada statute excludes numerous subjects from the 
mandatory scope of bargaining and provides instead that they ``are 
reserved to the local government employer without negotiation,'' 
including the right to ``assign or transfer an employee'' for non-
disciplinary reasons, ``[t]he right to reduce in force or lay off any 
employees because of lack of work or lack of money,'' ``[a]ppropriate 
staffing levels,'' and the ``means and methods of offering'' services 
to the public.''\10\
    <bullet> The Wisconsin statute covering state employees prohibits 
bargaining over many topics, including ``the policies, practices, and 
procedures of the civil service merit system relating to'' such things 
as ``promotions'' and the state's ``job evaluation system,'' as well as 
``compliance with the health benefit plan requirements'' that are 
specified elsewhere in state law. In addition, this Wisconsin statute 
excludes from the mandatory scope of negotiations most of the 
statutorily specified management rights, as well as ``matters related 
to employee occupancy of houses or other lodging provided by the 
state.'' Finally, the director of the state's office of collective 
bargaining is directed to try to negotiate contracts that ``do not 
contain any provision for the payment to any employee of a cumulative 
or noncumulative amount of compensation in recognition of or based on 
the period of time an employee has been employed by the state,'' i.e., 
longevity pay.
    With H.R. 980's very broad definition of what must be negotiated, 
efforts by these states--all of which should be viewed as ``labor 
friendly'' states--and many others to carefully exclude certain 
subjects from the mandatory scope of bargaining would, in all 
likelihood, be preempted. The potential consequences of such a 
limitation on the right of states and local units of government to deal 
with their own unique circumstances would be devastating. Moreover, it 
heightens the probability that there will be frequent clashes between 
federal government on the one hand and state and local government on 
the other over policy judgments that should, in reality, be made at the 
state and local level. Such likely clashes would undermine federal-
state relationships in an entirely unnecessary way. Since the terms and 
conditions of employment for police officers and firefighters are so 
uniquely local in nature, the scope of negotiations over them should 
not be mandated by federal law.
    Another very real problem with respect to H.R. 980 is the conflict 
between its defined scope of bargaining and the existence of civil 
service systems in most states and in a substantial number of units of 
local government as well. One of the primary principles of civil 
service is the merit principle for the employment and advancement of 
public employees. If H.R. 980 were enacted, however, there is no 
specific exclusion from the otherwise broad scope of bargaining to 
protect the merit principle. As a result, union proposals to make 
promotions based entirely or substantially on seniority would probably 
fall within the mandatory subject of bargaining, even though such 
proposals are outside the scope of mandatory bargaining under many 
state and local collective bargaining laws, some of which were 
discussed above, as well as under the Civil Service Reform Act of 1978. 
Interestingly, when then Secretary of Labor Arthur Goldberg recommended 
to President Kennedy that federal employees be given the right to 
organize and bargain collectively, he made the following cautionary 
comment:
    The principle of entrance into the career service on the basis of 
open competition, selection on merit and fitness, and advancement on 
the same basis, together with a full range of principles and practices 
that make up the Civil Service System govern the essential character of 
each individual's employment. Collective dealing cannot vary these 
principles. It must operate within the framework.\11\
    Simply stated, H.R. 980 would, in all likelihood, result in the 
invalidation of existing state laws that protect the merit principle 
from encroachment through the collective bargaining process.
    One could take virtually any of the 38 state statutory provisions 
providing collective bargaining rights for police officers and/or 
firefighters and come to the conclusion that there is something in each 
law that likewise does not meet the ``substantially provides'' 
test.\12\ This fact illustrates the fundamental problem with H.R. 980, 
i.e., it is based on a federally prescribed, ``one-size-fits-all'' 
formula for establishing what rights and responsibilities firefighters 
and police officers should have at the state and local level. It 
totally ignores the political and practical policy judgments made by 
numerous state legislatures concerning what is best for police officers 
and firefighters in their states.
    Under our system of federalism, the fact that there are many 
different solutions and approaches to these issues is not only expected 
but it is also encouraged. While the IAFF, FOP, and other unions that 
represent firefighters and police officers would undoubtedly like one 
uniform national law because it would make their job easier, that is 
hardly a valid reason for federal legislation. The diversity of state 
and local legislation with respect to police officers and firefighters 
is not something to be overridden by federal law but rather is 
something that should be encouraged and promoted. As the Advisory 
Commission on Intergovernmental Relations observed many years ago, ``* 
* * experimentation and flexibility are needed, not the standardized, 
Federal, preemptive approach.'' \13\
    The chilling effect that Federal legislation along the lines of 
H.R. 980 would have on such experimentation seems clear. When Congress 
was last considering such legislation in the early 1970s, Dr. Jacob 
Seidenberg, the then Chairman of the Federal Services Impasse Panel, 
observed that the enactment of Federal legislation would curtail 
necessary experimentation since ``there is an aspect of permanency and 
inflexibility in Federal legislation.'' \14\ If H.R. 980 were enacted, 
it would, in the words of Justice Oliver Wendell Holmes, ``prevent the 
making of social experiments * * * in the isolated chambers afforded by 
the several states * * *'' \15\
    States and local units of government should have the right to make 
policy decisions with respect to whether police officers and 
firefighters should be granted the right to engage in collective 
bargaining and, if so, under what terms and conditions as opposed to 
having all such matters mandated by federal law. Relevant in this 
regard are the following comments in an article on federalism that 
appeared the ABA Journal several years ago:
    Given real choices, citizens who are not satisfied with state 
government ``can vote with their feet as well as at the ballot box,'' 
and go pursue their happiness in another state, he points out. People 
``get to choose among different sovereigns, regulatory regimes, and 
packages of government services,'' he says. This freedom disciplines 
the states.\16\
Since the vast majority of States have collective bargaining laws 
        covering police officers and/or firefighters and the vast 
        majority of all police officers and firefighters are union 
        members, there is no substantial need for Federal legislation
    By my count, 34 states have enacted public sector collective 
bargaining laws covering both police officers and firefighters.\17\ An 
additional four states have enacted laws covering firefighters 
only.\18\ And while some states such as Arizona have opted not to enact 
collective bargaining laws covering police officers and firefighters, 
local ordinances have been adopted in such cities as Phoenix that grant 
such employees the right to engage in collective bargaining. Moreover, 
in many of the states that have not enacted laws collective bargaining 
is legally permissible and, as a result, there are many examples of 
jurisdictions that have voluntarily agreed to recognize fire and police 
unions and have negotiated collective bargaining agreements.\19\
    In addition to the large number of states with public sector 
collective bargaining laws covering police officers and/or 
firefighters, the vast majority of police officers and firefighters are 
already union members. While less than 8 percent of all nonagricultural 
private sector workers belong to unions, nearly 40 percent of all 
public employees are union members. The statistics are even more 
compelling with respect to police officers and firefighters.\20\ For 
firefighting occupations, the union density rate is 68.8 percent; for 
police and sheriff's patrol offers, the union density rate is 58.7 
percent.\21\ These statistics strongly suggest that there is absolutely 
no compelling need to enact federal legislation for police officers and 
firefighters at the state and local level.
    Since the vast majority of states have collective bargaining laws 
and since the vast majority of all police officers and firefighters are 
union members, there is no need for federal legislation that would 
require states to either adopt one monolithic model for collective 
bargaining prescribed by Congress or be subjected to the jurisdiction 
of the Federal Labor Relations Authority and the collective bargaining 
rules prescribed by FLSA. With respect to the few remaining states that 
do not have public sector collective bargaining laws covering police 
officers and/or firefighters, the political judgment has presumably 
been made that such laws are not necessary. Police officers and 
firefighters, like all other public employees, have their First 
Amendment rights to petition their public employers. Indeed, unlike 
employees in the private sector, they have the right to participate in 
the election of their employers and to influence the decisions of those 
elected officials. From my travels around the country, it is my 
unequivocal observation that police officers, firefighters, and their 
unions have considerable political clout in virtually every state 
legislature. Even though they may not have been successful in getting a 
given state legislature to adopt a collective bargaining law, there are 
numerous instances in which they have had a significant impact on 
changes in pension legislation and other legislation concerning their 
terms and conditions of employment.
    Since police and fire unions have demonstrated their political 
prowess at the state and local level, it would be my suggestion that 
they should redirect their efforts to the state and local level, rather 
than push for federal legislation with all of the attendant problems. 
In fact, such activity is presently taking place in at least one of 
states that does not have a public sector collective bargaining law 
covering public safety officers-North Carolina. Thus, a ``Public Safety 
Employer-Employee Cooperation Act,'' with provisions remarkably similar 
to H.R. 980, has been introduced in the current session of the North 
Carolina Senate.\22\ This is where the debate over whether such 
legislation is needed should take place, i.e., at the state level and 
not at the federal level.
The stated rationale for H.R. 980 is directly at odds with what 
        Congress and every President since Jimmy Carter has determined 
        to be appropriate for large numbers of public safety employees 
        employed by the Federal Government
    The primary rationale for H.R. 980, as set forth in the Act's 
Findings and Declaration of Purpose, is that ``the settlement of issues 
through the processes of collective bargaining'' is in ``the National 
interest'' since ``State and local public safety officers play an 
essential role in the efforts of the United States to detect, prevent, 
and respond to terrorist attacks,'' as well as ``other mass casualty 
incidents.'' \23\ If that is the case, then one must wonder why 
Congress and every President since Jimmy Carter have decided to exempt 
untold numbers of federal employees who would be deemed to public 
safety officers under H.R. 980. Consider for example, the following:
    <bullet> The Federal Bureau of Investigation (``FBI''), the Central 
Intelligence Agency (``CIA''), the National Security Agency (``NSA''), 
and the United States Secret Service, and the United States Secret 
Service Uniformed Division are totally exempt from coverage under the 
collective bargaining provisions of the Civil Service Reform Act of 
1978 (``CRA'') and, as a result, tens of thousands of employees 
employed by these agencies have no enforceable right to engage in 
collective bargaining.\24\
    <bullet> The CRA also permits the President to issue an order 
suspending any provision of the CRA with respect to any federal agency 
or activity if ``the President determines that the agency or 
subdivision has a primary function intelligence, counter-intelligence, 
investigative, or national security work'' and that the provisions of 
the CRA ``cannot be applied to that agency or subdivisions in a manner 
consistent with national security requirements and considerations.'' 5 
U.S.C. Sec.  7103(b). In Executive Order 12171, President Carter 
excluded literally hundreds of federal agencies or subdivisions from 
being covered by the CRA.\25\ Significantly, Executive Order 12171 has 
been amended and extended by every subsequent President, including 
President Clinton, to exclude additional federal employees from 
coverage under the Federal Labor-Management program.\26\ For example, 
in Executive Order 12632, ``* * * all domestic field offices and 
intelligence units of the Drug Enforcement Administration'' were 
excluded.\27\
    Separate and apart from the two diametrically opposed standards for 
determining whether collective bargaining is appropriate for public 
safety employees, it also must be emphasized that the law enforcement 
officers and firefighters employed by the Federal government who are 
covered by the Civil Service Reform Act of 1978 have no right to 
negotiate over wages, pensions, and many other significant terms and 
conditions of employment. Rather, Congress has decided, and rightfully 
so, that certain issues ought to be decided by Congress itself and not 
be subject to collective bargaining. Thus, the CRA provides for 
negotiations over ``conditions of employment,'' but it specifically 
excludes any matters like wages and pensions that ``are specifically 
provided for by Federal statute.'' \28\ That being the case, one would 
think that the state legislatures should be given the same discretion 
to make similar policy determinations.\29\
    It is more than ironic that the federal government's own collective 
bargaining statute would not even come close to meeting the standards 
specified in H.R. 980 that state collective bargaining statutes must 
meet in order to remain in effect and not be preempted by the 
substantive provisions of H.R. 980.
H.R. 980 is rather clearly unconstitutional as applied to States and in 
        all likelihood it would be held unconstitutional as applied to 
        units of local government
    Finally, there is a substantial question concerning whether H.R. 
980 passes constitutional muster. In my judgment, it does not. H.R. 980 
defines the terms ``employer'' and ``public safety employer'' to ``mean 
any State, political subdivision of a State, the District of Columbia, 
or any territory or possession of the United States that employs public 
safety officers.'' \30\ From the text of H.R. 980, it is clear that the 
purported constitutional basis for enacting H.R. 980 is the Commerce 
Clause. However, the Supreme Court in a series of decisions starting 
with the Seminole Tribe of Florida v. Florida\31\ has unequivocally 
held that Congress does not have the authority to abrogate the Eleventh 
Amendment immunity of states under the Commerce Clause. There is 
absolutely no doubt in my mind that the Supreme Court today would hold 
that Congress does not have the constitutional authority under the 
Commerce Clause to enact H.R. 980 vis-a-vis states and thereby abrogate 
their Eleventh Amendment immunity.\32\
    Moreover, even if H.R. 980 were amended to specifically provide 
that Congress was unequivocally abrogating the Eleventh Amendment 
immunity of states pursuant to the Enforcement Clause of the Fourteenth 
Amendment, it is nevertheless quite clear that the Supreme Court would 
hold that Congress would not be acting pursuant to a valid grant of 
constitutional authority. In Florida Prepaid Post-Secondary Education 
Expense Board v. College Savings Bank,\33\ the Court held that the 
authority of Congress under the Fourteenth Amendment is `` `to enforce, 
not the power to determine what constitutes a constitutional 
violation.' '' \34\ Thus, under the test articulated by the Supreme 
Court, Congress would only have the authority under the Fourteenth 
Amendment to enact public sector collective bargaining legislation such 
as H.R. 980 if its objective is the ``carefully delimited remediation 
or prevention of constitutional violations.'' \35\
    The right of public employees to be represented for the purpose of 
bargaining collectively with their public employers, however, has never 
been recognized as a constitutional right. To the contrary, the courts 
have uniformly held that it is not a violation of the constitutional 
rights of public employees for public employers to refuse to engage in 
collective bargaining.\36\ Indeed, the Supreme Court in its unanimous 
1979 per curium decision in Smith v. Arkansas State Highway Employees, 
Local 1315 \37\ rejected a claim that the Arkansas State Highway 
Commission violated the constitutional rights of highway department 
employees when it refused ``to consider or act upon grievances when 
filed by the Union rather than by the employee directly.'' \38\ In 
rejecting the employees' constitutional claims, the Court noted that 
while a ``public employee surely can associate and speak freely and 
petition openly, and he is protected by the First Amendment from 
retaliation for doing so, * * * the First Amendment does not impose any 
affirmative obligation on the government to listen, to respond or, in 
this context, to recognize the association and bargain with it.'' \39\
    Since there is no constitutionally recognized right to engage in 
collective bargaining or to require public employers to grant 
recognition for the purposes of collective bargaining, it is clear that 
Congress does not have the authority under Section 5 of the Fourteenth 
Amendment to enact legislation such as H.R. 980. To paraphrase from the 
Supreme Court's decision in Kimel v. Florida Board of Regents, ``* * * 
the substantive requirements * * * [that H.R. 980] imposes on state and 
local governments are disproportionate to any constitutional conduct 
that conceivably could be targeted by the Act.'' \40\
    While the unconstitutionality of H.R. 980's coverage of units of 
local government is not as unequivocal as it is with respect to states, 
the coverage of units of local government would raise serious 
constitutional issues. Given the expressed views of the majority in all 
of the Supreme Court cases cited above, it is entirely probable that 
this five-member majority will some day return to the principles 
articulated in National League of Cities v. Usery\41\ in which the 
Supreme Court held that Congress did not have the authority to extend 
the provisions of the Fair Labor Standards Act to states and units of 
local government under the Commerce Clause. In his plurality decision 
for the Court, then Justice Rehnquist emphasized ``the essential role 
of the States in our Federal system of government,'' \42\ and noted:
    One undoubted attribute of state sovereignty is the States' power 
to determine the wages which shall be paid to those whom they employee 
in order to carry out their governmental functions, what hours those 
employees will work, and what compensation will be provided when these 
employees may be called upon to work overtime. * * * \43\
    Justice Rehnquist also noted that the FLSA's ``congressionally 
imposed displacement of State decisions may substantially restructure 
traditional ways in which the local governments have arranged their 
affairs.'' \44\ There is absolutely no doubt in my mind that the effect 
and impact that the Court found to be beyond the power of Congress 
under the Commerce Clause in National League of Cities would be 
magnified many times over if H.R. 980 were enacted.
    While National League of Cities was overruled in 1985 in Garcia v. 
San Antonio Metropolitan Transit Authority,\45\ the strongly worded 
dissenting opinions of both Justice Rehnquist and Justice O'Connor 
suggest that the Supreme Court may well return to the constitutional 
principles articulated in National League of Cities. Since the 
constitutional rationale espoused by the Supreme Court majority in 
cases such as Seminole, Lopez, and Kimel is very close to Justice 
Rehnquist's rationale in National League of Cities, it is surely not 
unreasonable to suggest that the Supreme Court may well find H.R. 980's 
extension of coverage to units of local government to be beyond the 
power of Congress under the Commerce Clause.\46\ Indeed, with H.R. 
980's massive displacement of the legislative policy decisions made by 
state and local governments, only some of which have been discussed 
above, it would be difficult to find a better vehicle for the Supreme 
Court to reinstate the rationale of National League of Cities as Chief 
Justice Rehnquist and Justice O'Connor prophesized the Supreme Court 
would do someday.\47\
    While the Supreme Court has the unquestioned power to determine the 
limits of the authority of Congress to enact legislation under the 
Commerce Clause in order to maintain the appropriate balance between 
federal and state authority, it is important to emphasize that all 
three branches of government have the responsibility to try to insure 
that the principles of federalism embodied in the Constitution are 
maintained and upheld. As Justice Kennedy noted in his concurring 
opinion in United States v. Lopez, ``* * * it would be mistaken and 
mischievous for the political branches to forget that the sworn 
obligation to preserve and protect the Constitution in maintaining the 
federal balance is their own in the first and primary instance'' and 
that ``[t]he political branches of the Government must fulfill this 
grave Constitutional obligation if the democratic liberty and the 
federalism that secures it are to endure.'' \48\ In upholding the 
Constitution and the principles of federalism upon which it is based, 
it is incumbent on Congress to consider the tremendous adverse impact a 
bill such as H.R. 980 would have on Federal-State relationships.
Conclusion
    Given the substantial constitutional and practical issues posed by 
H.R. 980, coupled with the overwhelming lack of evidence of any 
compelling need for Congress to mandate collective bargaining for 
police officers and firefighters at the state and local level, Congress 
should not enact legislation in this sensitive area. The existence of 
38 state collective bargaining laws at the state and local level 
covering police officers and/or firefighters, virtually all of which go 
substantially beyond what Congress has deemed appropriate for police 
officers and firefighters employed by the federal government, 
demonstrates that there is absolutely no need for the proposed 
legislation.
                                endnotes
    \1\ See Shaw & Clark, ``The Need for Public Employee Labor 
Legislation in Illinois,'' 59 Ill. B.J. 628 (1971).
    \2\ Inexplicably, the standards upon which such rules are to be 
based do not include any Landrum-Griffin-like provisions concerning the 
regulation of internal union affairs. This omission is especially 
puzzling given the widely reported financial mismanagement of several 
major unions that represent public sector unions.
    \3\ 29 U.S.C. Sec.  160(a).
    \4\ Statement of Arvid Anderson, Hearings on H.R. 12532, H.R. 7684, 
& H.R. 9324 before the Special Subcomm. on Labor of the House Comm. on 
Education and Labor, 92d Cong., 2d Sess., 404 (1972).
    \5\ For example, under the NLRA it is firmly established that 
pension and retirement provisions are mandatory subjects of bargaining. 
See, e.g., Inland Steel Co. v. NLRB, 77 N.L.R.B. 1, enf'd 170 F.2d 247 
(7th Cir. 1948), cert. denied, 336 U.S. 960, 69 S. Ct. 887, 93 L. Ed. 
1112 (1949). Similar rulings have been made under public sector 
collective bargaining laws. See, e.g., Detroit Police Officers Ass'n v. 
City of Detroit, 319 Mich. 44, 214 N.W.2d 803 (1974).
    \6\ N.Y. Civil Service Law, ch. VII, Art. XIV, Sec.  201(4). Either 
explicitly or implicitly most states have removed pensions from the 
scopy of negotiations.
    \7\ Illinois Public Labor Relations Act, 5 ILCS 315/14(i)
    \8\ Maine State Employees Labor Relations Act, Title 26, Ch. 9-B, 
Section 1.E (4)(c).
    \9\ Michigan Constitution, Article XI, Section 5.
    \10\ Nevada Revised Statutes, Ch. 288.150(3)(a)-(c).
    \11\ 1961 Task Force Report on Employee-Management Cooperation in 
the Federal Service, in Labor-Management Relations in the Public 
Service, Part I, at 14 (H. Robert ed. 1968).
    \12\ In making this determination, H.R. 980 provides that ``the 
authority shall consider and give weight, to the maximum extent 
practicable, to the opinion of affected employee organizations.'' H.R. 
980, Section 4(a)(1). Since it is state laws that may well be 
invalidated, one can only wonder why are the views of states are being 
subordinated to the views of organized labor. And, to make matters 
worse, H.R. 980 provides that ``any final order of the Authority with 
respect to questions of fact or law shall be found to be conclusive 
unless the court determines that the Authority's decision was arbitrary 
and capricious.'' H.R. 980, Section 5(c)(1). To suggest that the deck 
is being stacked again states and local units of government under H.R. 
980 is to only state the obvious.
    \13\ Advisory Commission on Intergovernmental Relations, Labor 
Management Policies for State and Local Government 113 (1969).
    \14\ Remarks of Dr. Jacob Seidenberg at the symposium on ``Equity 
and the Public Employer,'' Washington, D.C., May 10, 1974, p. 24.
    \15\ Truax v. Corrigan, 257 U.S. 312, 344 (1921) (dissenting 
opinion).
    \16\ France, ``Laying the Groundwork,'' ABA Journal, May 2000, at 
40, 42. The person quoted in the excerpt is Michael S. Greve, the 
author of the excellent book, Real Federalism: Why it Happens, How it 
Could Happen (AEI Press, 1999).
    \17\ Alaska, California, Connecticut, Delaware, Florida, Hawaii, 
Illinois, Indiana, Iowa, Kansas, Kentucky, Maine, Maryland, 
Massachusetts, Michigan, Minnesota, Missouri, Montana, Nebraska, 
Nevada, New Hampshire, New Jersey, New York, North Dakota, Ohio, 
Oklahoma, Oregon, Pennsylvania, Rhode Island, South Dakota, Texas, 
Vermont, Washington, and Wisconsin. While most of these state laws 
cover both police officers and firefighters who are employed at both 
the state and local level, several are more limited in their coverage. 
The Nevada law, for example, only covers police officers and 
firefighters employed by units of local government and does not cover 
such employees who are employed by the State.
    \18\ Alabama, Georgia, Idaho, and Wyoming.
    \19\ Among the states without collective bargaining laws covering 
either police officers or firefighters but which authorize public 
employers to grant recognition for purposes of collective bargaining 
and where such bargaining takes place are Arkansas, Colorado, 
Louisiana, New Mexico, and West Virginia.
    \20\ Hirsch & MacPherson, Union Membership and Coverage Database 
from the CPS, Membership, Coverage, Density and Employment by 
Occupation, 2006, at http://www.trinity.edu/bhirsch/unionstats
    \21\ Id.
    \22\ General Assembly of North Carolina, Session 2007, Senate Bill 
970 entitled ``Public Safety Employer-Employee Cooperation Act.''
    \23\ H.R. 980, Section 2.
    \24\ 5 U.S.C. Sec.  7103(a)(3) (B), (C), (D), and (H).
    \25\ Executive Order 12171, 44 F.R. 66565 (Nov. 19, 1979).
    \26\ Executive Order 13039, 62 F.R. 12529 (Mar. 11, 1997).
    \27\ Executive Order 12632, 53 F.R. 9852 (Mar. 23, 1988).
    \28\ 5 U.S.C. Sec.  7103 (14)(c).
    \29\ For federal employees covered by the Civil Service Reform Act 
of 1978 and postal employees covered by the National Labor Relations 
Act, unions are prohibited from negotiating union shop or fair share 
clauses, but under H.R. 980 the negotiation of such union security 
clauses would presumably be a mandatory subject of bargaining in states 
that do not have applicable right-to-work laws
    \30\ H.R. 980, Sec. 3(9).
    \31\ 517 U.S. 44, 116 S.Ct. 1114 (1996). See also Kimel v. Florida 
Board of Regents, 145 L.Ed.2d 522, 120 S.Ct. 631 (2000).
    \32\ Although Section 5(c) of H.R. 980 provides for enforcement 
``through appropriate State courts,'' that does not make any difference 
in terms of a state Eleventh Amendment immunity from suits. In Alden v. 
Maine, 119 S.Ct. 2240 (1999), the Supreme Court held that Congress did 
not have the authority under the Commerce Clause to subject 
nonconsenting states to private suits in state courts, noting that 
``the States' immunity from suit is a fundamental aspect of the 
sovereignty which the States enjoyed before the ratification of the 
Constitution, and which they retain today * * *.'' Id. at 2246-2247.
    \33\ 119 S.Ct. 2199 (1999).
    \34\ 119 S.Ct. at 2206.
    \35\ College Savings Bank v. Florida Prepaid Post-Secondary 
Education Expense Board, 119 S.Ct. 2219, 2224 (1999).
    \36\ See, e.g., Alaniz v. City of San Antonio, 80 L.R.R.M. 2983 
(W.D. Tex. 1971).
    \37\ 99 S.Ct. 1826 (1979).
    \38\ Id. at 1828.
    \39\ Id. at 1827-1828.
    \40\ 120 S.Ct. at 645.
    \41\ 426 U.S. 833, 96 S.Ct. 2465, 49 L.Ed. 2d 245 (1976).
    \42\ 96 S.Ct. at 2474.
    \43\ Id. at 2471.
    \44\ Id. at 2473.
    \45\ 469 U.S. 528, 105 S.Ct. 1005 (1985).
    \46\ In 1942, the same year in which the Supreme Court issued what 
many consider to be its most far reaching decision on the authority of 
Congress under the Commercial Clause, Wickard v. Filburn, 317 U.S. 111, 
63 S. Ct. 82, 87 L. Ed. 122 (1942), the National War Labor Board 
(NWLB), in the course of deciding that it had no jurisdiction over 
municipal employees, made the following observation in an opinion 
authored by Wayne Morse:
    It has never been suggested that the Federal Government has the 
power to regulate with respect to the wages, working hours, or 
conditions of employment of those who are engaged in performing 
services for the states or their political subdivisions * * * . Any 
directive order of the National War Labor Board which purported to 
regulate the wages, the working hours, or the conditions of employment 
of state or municipal employees would constitute a clear invasion of 
the sovereign rights of the political subdivisions of local state 
government.
    Among the prestigious members of the NWLB who concurred in this 
unanimous decision were George Meany, the future President of the AFL-
CIO, and George Taylor, the future author of the New York Taylor Law.
    \47\ In his dissent in Garcia Chief Justice Rehnquist stated that 
he did ``not think it incumbent on those of us in dissent to spell out 
further the fine points of a principle that will, I am confident, in 
time again command the support of a majority of this Court.'' 105 S. 
Ct. at 1033. Similarly, Justice O'Connor in her dissent in Garcia said 
that she shared ``Justice rehnquist's belief that this Court will in 
time again assume its constitutional responsibility.'' 105 S. Ct. 1037.
    \48\ United States v. Lopez, supra, 115 S.Ct. at 1639. In this same 
concurring opinion, Justice Kennedy further noted that ``the federal 
balance is too essential a part of our Constitutional structure and 
plays too vital a role in securing freedom for [the Court] to admit 
inability to intervene when one or the other level of government has 
tipped the scales too far.'' Id.
                                 ______
                                 
    Chairman Andrews. Thank you very, very much.
    Professor Banks, you are recognized for 5 minutes.

    STATEMENT OF WILLIAM BANKS, PROFESSOR OF LAW, SYRACUSE 
                           UNIVERSITY

    Mr. Banks. Good afternoon, Mr. Chairman, Ranking Member 
Kline, members of the subcommittee. I appreciate the invitation 
to speak to the subcommittee today, and I will focus on the 
constitutionality of H.R. 980.
    Ordinarily, the constitution reserves to the states the 
authority to manage labor relations within their borders. 
Indeed, the virtue of our federal system is on display in the 
rich variety of approaches to managing labor relations in the 
50 states.
    For public-sector workers, however, the federal system has 
denied their full protection and, in some 21 states, their 
rights to collectively bargain are not fully recognized. 
Although a principal value of our federal system is to 
encourage states to find new and creative solutions to policy 
problems in their state legislative laboratories, all of us 
know that, at times, that discretion for states to shape their 
own approaches to policy problems has stood in the way of the 
protection of important individual rights.
    In such situations, the federalism value of state 
creativity can and should be subordinated to the more 
compelling federalism value of protecting individual liberties.
    In my opinion, Congress has the constitutional authority to 
enact H.R. 980 under the Commerce Clause, and its enactment 
would not violate the 10th Amendment. It has been clear since 
1937 that Congress may regulate labor-management relations in 
employment in or affecting interstate commerce.
    When Congress extends its commerce-based regulations to 
public employees and employers, the 10th Amendment has 
presented an obstacle only when Congress attempts to 
``commandeer'' state or local regulatory processes by requiring 
states and/or cities to adopt and implement a federal 
regulatory program.
    The Supreme Court's 1985 decision in Garcia allowed 
Congress to extend wage and hour protections to state and local 
workers over the 10th Amendment objections of the city for two 
reasons that have significance in your consideration of H.R. 
980.
    First, the court noted that federalism values are 
especially well protected by the structural guarantees of our 
government. State and local interests are well represented in 
our Congress, particularly in the House of Representatives. In 
other words, if Congress determined that wage and hour 
protections should be extended to public-sector workers in the 
states and cities, the representatives from those districts 
followed their constituents' policy preferences that public-
sector workers should enjoy the minimum-wage maximum-hour 
protections afforded those in the private sector.
    Second, the court recognized that one of the most important 
purposes of our federal system--ensuring individual liberty--
would be advanced by permitting Congress to extend the wage and 
hour protections.
    The court's decisions since Garcia do not call into 
question Congress's authority to apply generally applicable 
federal protections, such as wage and hour or collective 
bargaining rights, to state and local governments. The 
commandeering problem that caused the court to strike down 
radioactive waste legislation and the Brady Act extending 
handgun controls does not taint, in my view, H.R. 980.
    This bill does not require state or local governments to 
enact or implement a federal regulatory program. Instead, H.R. 
980 places the onus on federal implementation through the FLRA. 
If a state chooses not to enact a program that meets federal 
requirements, the FLRA steps in. In the radioactive waste and 
Brady Act settings, the legislation did not afford states any 
such choice. Instead, they were obligated to regulate through 
state and local mechanisms to achieve the federal policy goals.
    I will note briefly one other constitutional objection that 
has been raised to H.R. 980, the state sovereign immunity 
protected by the 11th Amendment. Recent decisions of the 
Supreme Court protect states from suits brought in federal 
court by citizens of their state or of other states. H.R. 980 
creates no right of action for individuals directly and, thus, 
the bill does not confront those limitations.
    In addition, under H.R. 980, in states where the FLRA 
regulates to ensure collective bargaining, any eventual 
enforcement of state recalcitrance would be initiated by the 
agency, not by any individual. Federal agencies are not 
affected in their litigation against states or cities by the 
11th Amendment.
    I will conclude my remarks now and would eagerly await any 
questions you might have. Thank you.
    [The statement of Mr. Banks follows:]

    Prepared Statement of William Banks, Professor of Law, Syracuse 
                               University

    My name is William Banks. I am a professor of law and professor of 
public administration at Syracuse University, and I direct its 
Institute for National Security and Counterterrorism (INSCT). I have 
expertise in the areas of national and homeland security and 
counterterrorism, and constitutional law, developed during my thirty 
years of teaching, writing, and speaking in these fields. I appreciate 
the invitation to speak to the Subcommittee today, and I will focus on 
the constitutionality of H.R. 980, the Public Safety Employer-Employee 
Cooperation Act of 2007.
    Narrowly, the Constitution reserves to the states the authority to 
manage labor relations within their borders. Indeed, the virtue of our 
federal system is on display in the rich variety of approaches to 
managing labor relations in the fifty states. For public sector state 
and local workers, however, the federal system has denied their full 
protection and in some twenty-one states their rights to collectively 
bargain are not fully recognized. Although a principal value of our 
federal system is to encourage states to find new and creative 
solutions to policy problems in their state legislative laboratories, 
all of us know that, at times, that discretion for states to shape 
their own approaches to policy problems has stood in the way of the 
protection of important individual rights. In such situations, the 
federalism value of state creativity can and should be subordinated to 
the more compelling federalism value of protecting individual 
liberties.
    In my opinion, Congress has the constitutional authority to enact 
HR 980 under the Commerce Clause, and its enactment would not violate 
the Tenth Amendment. It has been clear since 1937 that Congress may 
regulate labor/management relations in employment in or affecting 
interstate commerce.\1\ Beginning in the same Supreme Court era, the 
Court acknowledged that Congress has considerable discretion to 
determine what activities affect interstate commerce, to the extent 
that it permitted a purely intrastate economic problem, such as local 
working conditions, to be subject to Commerce Clause regulation, on the 
theory that the aggregate number of such local incidents might affect 
interstate commerce.\2\
---------------------------------------------------------------------------
    \1\ NLRB v. Jones and Laughlin Steel Corp., 301 U.S. 1 (1937) 
(upholding the National Labor Relations Act).
    \2\ U.S. v. Darby, 312 U.S. 100 (1941) (upholding the Fair Labor 
Standards Act as applied to a local employer); Wickard v. Filburn, 317 
U.S. 111 (1942)(upholding federal limits on farm production as applied 
to a local farmer who grew wheat for family consumption).
---------------------------------------------------------------------------
    When Congress extends its commerce-based regulations to public 
employees and employers, the Tenth Amendment has presented an obstacle 
only when Congress attempts to ``commandeer'' state or local regulatory 
processes, by requiring states and/or cities to adopt and implement a 
federal regulatory program. The Supreme Court's 1985 decision in Garcia 
v. San Antonio Metropolitan Transit Authority\3\ allowed Congress to 
extend wage and hour protections to state and local workers, over the 
Tenth Amendment objections of the city, for two reasons that have 
significance in your consideration of HR 980. First, the Court noted 
that federalism values are especially well protected by the structural 
guarantees of our government--state and local interests are well 
represented in our Congress, particularly in the House of 
Representatives. In other words, if Congress determined that wage and 
hour protections should be extended to public sector workers in the 
states and cities, the Representatives from those districts followed 
their constituents' policy preferences--that public-sector workers 
should enjoy the minimum wage/maximum hour protections afforded those 
in the private sector workforce. Second, the Court recognized that one 
of the most important purposes of our federal system--ensuring 
individual liberty--would be advanced by permitting Congress to extend 
the wage and hour protections.
---------------------------------------------------------------------------
    \3\ 469 U.S. 528 (1985).
---------------------------------------------------------------------------
    The Court's decisions since Garcia do not call into question 
Congress's authority to apply generally applicable federal protections, 
such as wage and hour or collective bargaining rights, to state and 
local governments. The ``commandeering'' problem that caused the Court 
to strike down radioactive waste legislation and the Brady Act 
extending handgun controls does not taint HR 980. This bill does not 
require state or local governments to enact or implement a federal 
regulatory program. Instead HR 980 places the onus on federal 
implementation through the Federal Labor Relations Authority (FLRA). If 
a state chooses not to enact a program that meets federal requirements, 
the FLRA steps in. In the radioactive waste and Brady Act settings, the 
legislation did not afford the states with any such choice. Instead 
they were obligated to regulate through state and local mechanisms to 
achieve the federal policy goals.
    Summing up the Commerce Clause and Tenth Amendment concerns 
expressed by some, there is no reason to expect that the enactment of 
HR 980 would be stricken down on either of these grounds. It is true 
that Congress's Commerce Clause limits and state and local protections 
enshrined in the Tenth Amendment are two sides of the same coin. As the 
Court has recognized, the doctrines in both areas are designed to 
assure that the values of our federal system are honored. HR 980 is 
emblematic of federal legislation that furthers the values of 
federalism by protecting the individual rights of public sector 
workers. At the same time, the bill does not commandeer state or local 
government processes. It affords those governments that do not yet 
provide full collective bargaining rights for public sector workers a 
reasonable choice--provide the protections in your own way, or step 
aside and allow the FLRA to do so.
    I will note briefly one other constitutional objection that has 
been raised to HR 980--the states' sovereign immunity protected by the 
Eleventh Amendment. Recent decisions of the Supreme Court protect 
states from suits brought in federal court by citizens of their state 
or of other states. HR 980 creates no right of action for individuals 
and thus the bill does not confront those limitations. In addition, 
under HR 980, in states where the FLRA regulates to ensure collective 
bargaining, any eventual enforcement of state recalcitrance would be 
initiated by the FLRA, not by any individual. Federal agencies are not 
affected in their litigation against states or cities by the Eleventh 
Amendment.
    Allow me to conclude by reminding the Subcommittee of the lessons 
learned from Hurricane Katrina. The 2006 congressional Failure of 
Initiative report found widespread lack of unity, poor coordination and 
cooperation, and delayed and duplicative efforts by responders 
immediately prior to and after landfall of that brutal storm. Command 
and control was impaired at all levels of government, and state and 
local emergency response personnel lacked the cohesion across 
jurisdictions to organize their response activities effectively. The 
collective bargaining envisioned by HR 980 would help level the playing 
field for these public sector workers. Although this new benefit would 
not be a panacea for emergency preparedness and response, it would 
enhance the cohesion among agencies and across jurisdictions that may 
well improve the delivery of their critical services.
    When National Guard personnel from many different states were 
deployed to assist in the aftermath of Hurricane Katrina, 
administration of their work became a major headache for state 
Governors. Because their forces were activated on state active duty and 
subject to the rules and entitlements authorized by their home states 
(including pay and health care benefits, for example), coordination and 
cooperation among Guard units from different states was soon 
compromised by the complexities of administration and by the animosity 
and distrust among some that developed because of their variable 
economic and health-care situations. In this instance, there was a 
federal fix: The governors requested that the Secretary of Defense 
invoke so-called ``Title 32 status'' for National Guard personnel 
deployed for Katrina relief, effectively permitting uniform pay and 
benefits out of the U.S. Treasury, while assuring continuing 
operational command and control by the governors. In this instance 
Title 32 is a sort of administrative compromise--deployed personnel are 
made more uniform in pay and benefits, yet the operation is not 
federalized in the sense of bringing command under the President as 
Commander in Chief. HR 980 is, in part, a way to do for first 
responders what Title 32 does for the National Guard.
    Thank you. I will be happy to answer any questions that you may 
have.
                                 ______
                                 
    Chairman Andrews. Well, thank you very much.
    And I want to thank each of the panelists for very 
thorough, well-prepared testimony, and I think you have served 
our debate very, very well.
    I will begin, if I would, with Mr. Clark in discussing the 
concerns you raise about the 11th Amendment and sovereign 
immunity.
    Let's say that we enacted this bill, it became law, and a 
state that does not have the system that measures up under the 
criteria in the statute is ordered to bargain in good faith 
with a union in a city. The defendant in this case is the city 
government. Plaintiff is a labor organization that feels like 
it is not being bargained with in good faith.
    So, under the provisions of the bill, let's say the 
authority has not yet petitioned for enforcement of the order. 
So, under page 11, the right of action provision about an 
interested party filing suit in a state court of competent 
jurisdiction--so that the facts are labor organization files 
suit in the state courts of the defendant's state against a 
city. The defendant is a city of that state.
    Is it your view that the 11th Amendment sovereign immunity 
would bar that suit?
    Mr. Clark. That issue has already been addressed by the 
Supreme Court in Alden v. Maine, a 1999 decision. The Supreme 
Court held that Congress did not have the authority under the 
Commerce Clause to subject non-consenting states to private 
suits in state courts.
    Chairman Andrews. Who was the defendant in the Alden case? 
It is the state of Maine, wasn't it?
    Mr. Clark. It was the state of Maine.
    Chairman Andrews. It wasn't a subdivision of the state of 
Maine, was it? It wasn't a city?
    Mr. Clark. It was the state of Maine. It was an 11th 
Amendment----
    Chairman Andrews. It was the state. Do you think there is a 
constitutional distinction between a city or subdivision of the 
state itself?
    Mr. Clark. There is. The 11th Amendment immunity only 
applies at the state level or to arms of state government.
    Chairman Andrews. So the Alden case would not be 
controlling under the facts that I just laid out, would it?
    Mr. Clark. Not for 11th Amendment purposes, but----
    Chairman Andrews. Okay. Well, that is what I asked you 
about. I asked you about the 11th Amendment. So is it your 
position that in the case that I laid out, the 11th Amendment 
would not bar the claim against the city?
    Mr. Clark. The 11th Amendment has traditionally never been 
held applicable to cities and municipalities. It is a state 
immunity, not a local government immunity.
    Chairman Andrews. Okay. So there is no 11th Amendment 
problem with the facts that I laid out?
    Mr. Clark. No.
    Chairman Andrews. Okay. Let's talk about the 10th 
Amendment. Your position, if I read it correctly, is that this 
bill would be an unconstitutional intrusion upon the sovereign 
judgments of a state, the area protected by the 10th Amendment. 
So, basically, I think you say that the Commerce Clause does 
not extend as far as this bill would have us extend it. Is that 
right?
    Mr. Clark. Well, it would be my position that because of 
the invasive provisions of the act and the massive 
displacements of policy decisions that the decision of the 
National League of Cities, I think, would be revisited, and I 
think there are at least five members of the Supreme Court that 
would probably view it in that light.
    Chairman Andrews. But the National League of Cities case 
found that Congress did have the power, didn't it? Didn't it--
--
    Mr. Clark. The National League----
    Chairman Andrews. Didn't it overrule the----
    Mr. Clark. Justice Rehnquist, wrote for the plurality. He 
said one undoubted attribute of state sovereignty is the 
state's powers to determine the wages which shall be paid to 
those who are employed, et cetera, et cetera.
    Chairman Andrews. With all respect, that is not the 
majority opinion. Wasn't the decision in the National League of 
Cities case that the federal regulation did apply against the 
states in question?
    Mr. Clark. No.
    Chairman Andrews. Wasn't that the----
    Mr. Clark. No, it held----
    Chairman Andrews. The Garcia case. Excuse me. I am 
confusing----
    Mr. Clark. The Garcia case----
    Chairman Andrews. You are correct. I am confusing this case 
with Garcia.
    Mr. Clark. Subsequently, the National League of Cities was 
overruled.
    Chairman Andrews. Under the Garcia case, the 40-hour work 
week did apply against the local transportation authority, 
didn't it?
    Mr. Clark. Yes, 5-4.
    Chairman Andrews. Okay. As President Bush can tell you, 5-4 
gets it done in the Supreme Court.
    Mr. Clark. In that case, that carried the day. Yes, sir.
    Chairman Andrews. So the point is that when the issue was 
whether or not imposing the 40-hour work week on a local 
government unit was okay under the Constitution 10th Amendment, 
the holding was that it was okay, right?
    Mr. Clark. In Garcia, it was. Yes.
    Chairman Andrews. So how is imposing standards under 
collective bargaining different than imposing standards under 
the 40-hour work week? How is it constitutionally different?
    Mr. Clark. I think the number of policy issues that will be 
implicated by H.R. 980 are far more intrusive and far more 
invasive than setting a minimum wage and setting a policy in 
terms of overtime pay.
    Chairman Andrews. But minimum wage has a direct----
    Mr. Clark. I mean, we are talking about making decisions--
--
    Chairman Andrews. Well, but a minimum wage has a direct 
financial implication upon a public treasury. It tells you how 
much you must pay your employees at a minimum. That is pretty 
intrusive, isn't it?
    Mr. Clark. It is intrusive, but not as intrusive as saying 
that you have to negotiate and come to an impasse and maybe go 
to an interested arbitrator before you can lay off employees or 
negotiating over manning, which tells you how many----
    Chairman Andrews. Yes, that----
    Mr. Clark [continuing]. Firefighters you have to have on a 
rig or a piece of equipment.
    Chairman Andrews. If you read the briefs from Garcia, that 
sounds an awful lot like the arguments that lost under the 
Garcia case.
    My time has expired. I would yield to my friend from 
Minnesota for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    Again, thanks to the panel for being here.
    I am always fascinated when lawyers talk to lawyers, and it 
reminds me of why I am not one. [Laughter.]
    I was lost after the introduction there. I am trying to 
understand here, recognizing that I am not a lawyer, proudly, 
proudly so.
    Chairman Andrews. You might be one some day. You keep 
working at it. [Laughter.]
    Mr. Kline. No. No chance. No chance.
    I am trying to understand if in states where you already 
have collective bargaining arrangements--and I am going to 
start with you, Mr. Clark, but this is sort of for everybody. 
Under this act, the FLRA would come in and decide if it was 
good enough. Is that the case, sort of basic English for this 
thing?
    Mr. Clark. Well, I mean, that is one way of putting it, but 
I think that is putting it very politely because it says 
``substantially provides'' and then says ``shall give to the 
maximum extent practicable to the views of affected labor 
organizations,'' and there are other provisions in the act that 
say, for example, ``It shall not be deemed inconsistent with 
H.R. 980,'' for the sole reason that the state's militia are 
excluded. That suggests to me that if there are some somewhat 
minor differences, those minor differences may well result in a 
state's law being determined to be not as substantially 
provided in H.R. 980.
    Mr. Kline. Okay. Well, I mean, you raised the question--and 
perhaps we will give Mr. O'Connor a chance to get at it here in 
just a minute--about why it is that the union should be given 
the sort of maximum weight over the elected officials.
    Let me just go back. I have an example here that I want to 
try to sort to the bottom. The state of New York is well-
represented. We are very happy to have Officer Nunziato and the 
chairman sort of.
    You can sort of represent New York, at least the river. 
[Laughter.]
    As I understand it, the agreement in New York specifically 
excludes issues relating to pensions from the scope of 
mandatory bargaining.
    Mr. Clark. Correct.
    Mr. Kline. So, as a practical matter, what would happen 
with New York if we were to pass H.R. 980? Do they now have to 
change their rules, or do they get a checkmark and move on?
    Mr. Clark. The contention probably would be made that the 
scope of bargaining in New York is narrower than the very broad 
definition contained in H.R. 980. That would then leave New 
York with the option of either amending its statute so as to 
expand the scope of bargaining or be subject to the provisions 
of the labor relations scheme that will be promulgated by FLRA.
    Mr. Kline. Okay. Thank you.
    Well, then I am a little bit confused because now I have to 
go back to Professor Banks who says that this does not require 
states to adopt or implement a federal regulatory program. It 
sounds to me like it does.
    New York would have to change, and there we already have 
the Port Authority of New York and New Jersey, but they would 
have to change it in order to comply with this regulatory 
program. Isn't that correct?
    Mr. Banks. I do not think so, Representative Kline, on two 
grounds here. I think initially the determination about whether 
New York would be substantially providing the rights and 
responsibilities would likely not come out short for the state 
of New York. I think this list of criteria in the bill is 
broad, a number of different factors would be considered, and a 
piece relating to pension bargaining would not necessarily 
exclude New York from being found in full compliance here.
    The second point is that the FLRA, once this bill becomes 
law, will have an opportunity to make regulations to more fully 
flesh out the criteria that would be utilized to make a 
determination about whether a state----
    Mr. Kline. Well, I guess then we do not know. The answer to 
my question is we do not know.
    Mr. Banks. We have no----
    Mr. Kline. We have a distinguished panel here, and there is 
some disagreement over what this legislation would require, and 
that is one of the things that we need to be a little bit 
careful of on this side of the room when we put something into 
law, that we sort of know what it is going to do, and I am not 
sure----
    Mr. Banks. I think that is certainly true, but to answer 
your point about the state having a choice or being subject to 
a federal commandeering here, I think it is clear that if there 
was any change to be made, it would be directed and be subject 
to FLRA actions, not necessary to the state of New York.
    New York could choose, in other words, to have their own 
program, and if it was found not to be in compliance with this 
bill, it would be up to the FLRA to step in. It would not be 
expending state resources, state personnel, the mechanisms of 
New York State government to get this done necessarily.
    Mr. Kline. I knew there was a reason why I was not a 
lawyer. [Laughter.]
    I yield back.
    Chairman Andrews. Thank you, Mr. Kline.
    The chair recognizes the author of the bill, the gentleman 
from Michigan, Mr. Kildee, for 5 minutes.
    Mr. Kildee. Thank you very much.
    Nor am I a lawyer. I am a teacher, but I am a member of the 
NEA and the American Federation of Teachers, AFL-CIO. I still 
carry my card.
    Let me ask you, Mr. Clark. In your testimony, you say, 
``Let me emphatically state that I wholeheartedly support 
collective bargaining in the public sector where a majority of 
the employees have opted to be represented for the purposes of 
collective bargaining.''
    But you have states like Virginia--my home is in Michigan; 
I have a house in Virginia--and North Carolina where collective 
bargaining is expressly forbidden.
    I can recall my first term down there. Fairfax County, 
which is kind of an advanced, progressive county, like 
Michigan, they had collective bargaining for a number of 
people, including teachers, and then in Richmond, the Virginia 
Supreme Court said that Fairfax County lacked the authority to 
have collective bargaining. So they do not have collective 
bargaining in Fairfax County.
    You would have thought, though--this is just my own value 
judgment--that maybe Fairfax County would have said, ``Well, 
what you have gained through your collective bargaining, you 
can keep anyway.'' No, they took it back, even your wages and 
your working conditions. They took it back, and Fairfax County 
reverted to the rest of Virginia.
    So you say that you do support that. Can you tell me what 
your organization is currently doing to promote collective 
bargaining rights in those states and jurisdictions which do 
not provide collective bargaining rights for their employees?
    Mr. Clark. I can speak on behalf of myself. I authored an 
article in the mid-1970s entitled, ``The Need for Public Sector 
Collective Bargaining Legislation in Illinois,'' and lobbied 
for the enactment of that legislation. That is obviously a 
decision that needs to be made in each state by those employers 
in those states as to whether they wish to go in that 
direction.
    You mentioned North Carolina. While doing a little Google 
search on the cooperation act that we are having a hearing here 
today on, I came across an act being proposed in North 
Carolina, Public Employer-Employee Cooperation Act of 2007, 
that looks almost exactly like H.R. 980.
    My position would be that that is where the debate should 
take place, at the state level, so they can decide what the 
needs of the state are and how they should be accommodated in 
terms of collective bargaining, if it is to be provided.
    Mr. Kildee. Let me ask you. Send some of the Virginians 
down to North Carolina. You state that you have written an 
article, but what has your organization done to promote 
collective bargaining in the state level?
    Mr. Clark. The organization has a number of state 
affiliates. In almost all of the states where there are 
affiliates, there are collective bargaining laws, and the 
organization has worked to try to improve those bargaining laws 
to make them work for both employers, employees and the unions 
that represent employees.
    Mr. Kildee. Kevin, you mentioned--Mr. Clark mentioned also 
that--H.R. 980 would supersede state authority. You believe 
there is a minor inconsistency with the FLRA. Could you address 
that?
    Mr. O'Connor. Thank you, Congressman Kildee.
    We strenuously disagree with that analysis. Let me respond 
on a couple of angles.
    Number one, I do not think that the analogy with the NLRA 
is particularly helpful. I mean, that was passed 6 decades ago. 
It was a top-down piece of federal legislation. While it had 
some exemptions for states, it was clearly a federal law that 
took effect immediately.
    Second, I think the language in the bill itself provides 
that protection. I think ``substantially comply'' will be very 
broadly construed.
    You know, right now, the FLRA has had decades worth of 
experience administering a public-sector labor law on the 
federal level, and on the federal level, quite a few things--
pensions, merit system, et cetera--are governed by statute, and 
FLRA works under a system where anything governed by statute is 
not subject to bargaining.
    So I think it is rather fanciful to suggest that after 
operating under decades under that premise that they would come 
in to individual states and actually look at a law, for example 
the Taylor law in New York, and say, ``Pensions are not 
governed under this. Therefore, the entire statute, you know, 
will be thrown out,'' and they will fiat a federal regulation 
in there. I do not think that is appropriate.
    I think when you also look at the legislation, it says, 
``terms and conditions of employment.'' It does not say, ``all 
terms and conditions of employment.'' So I think there is a 
great deal of latitude there for the FLRA to come in and say, 
``Where we have public-sector laws working, we are essentially 
going to grandfather those laws.''
    And to respond to the question that Mr. Kline had indicated 
he wanted to ask about giving weight to the view of public-
sector unions with respect to this, I can say almost 
universally for our partners--we have worked on this issue, as 
you well know, Mr. Kildee. The current iteration of this bill 
is well over 12 years old--it is not our desire or anybody's 
desire to federalize this process. We want local law, so, 
consequently, from our standpoint, we think that the affected 
public employees will say, ``We like our local law, and we are 
going to keep it.''
    Chairman Andrews. The gentleman's time has expired.
    Mr. Kildee. Thank you very much.
    Thank you.
    Chairman Andrews. Thank you, Mr. Kildee.
    The chair recognizes the gentleman from Illinois, Mr. Hare, 
for 5 minutes.
    Mr. Hare. Thank you, Mr. Chairman.
    Let me thank my colleague, Congressman Kildee, for a 
wonderful piece of legislation. I am honored to be a co-sponsor 
of it, Dale, and we are going to do very well, I predict, when 
this comes to the floor.
    I want to just say this. I wonder where all of us would be 
if it were not for the fire, police, emergency personnel, 
correctional officers and the number of people that we have 
each and every day that we count on to keep us safe.
    And I believe you said, Mr. O'Connor, that this bill is 
really a question of fairness. We have thousands of people that 
do not have the opportunity to have a collective bargaining 
agreement or to enter into a collective bargaining agreement, 
and coming from a labor union myself, I can tell you I know 
what the benefits can be when you have one and when you are 
striving to get one.
    I wonder, Mr. O'Connor, if you could just answer just a 
couple of questions. What would this bill do regarding to the 
New York law that we were talking about, whether the New York 
law would remain as is, or would this bill change that law or 
hurt that law or what would it do?
    Mr. O'Connor. I should also note that I am not an attorney, 
I am a firefighter, so I am opining from that perspective. 
[Laughter.]
    I think that, you know, based upon the answers that I gave 
to Mr. Kildee, I think the protections have been in there to 
really empower the states, that the various examples I gave 
concerning giving weight to affected employees, substantially 
comply, not enumerating all terms and conditions of 
employment--there is an awful lot of wiggle room there, and 
given the fact how FLRA has administered the federal labor law 
with the caveats that I pointed out, I think that it would go 
into a state like New York, say, ``Look, pensions are not on 
the table.''
    In other states, it could be the promotional system, as Mr. 
Clark enumerated, in the Michigan constitution, but I do not 
think they would take such a narrow view that they would say 
one aspect of bargaining is not permissible under a state 
constitution or an existing law, and that would invalidate. I 
just do not see FLRA wanting a power grab to give themselves 
that kind of authority. I think it is very clear the intent of 
this is we want 50 separate state laws, and if that does not 
occur, the hook is the FLRA has an authority to promulgate a 
regulation.
    Mr. Hare. Thank you.
    And, Mr. Nunziato, you know, coming from a state that does 
have the collective bargaining rights for its public safety 
officers, could you tell us why you believe it is essential to 
have a collective bargaining agreement in place, and from your 
perspective, do you believe that having one strengthens our 
national security and security in your state in particular?
    Mr. Nunziato. Well, I am sorry. Could you just repeat that 
again? I am sorry.
    Mr. Hare. And I read it so well. [Laughter.]
    Mr. Nunziato. Yes, you did.
    Mr. Hare. Coming from a state that provides collective 
bargaining rights for the public employees that you have, 
public safety officers, can you tell the committee why you 
believe it is essential to have a collective bargaining 
agreement, why it is essential to have a collective bargaining 
agreement in place, and given that, do you believe that having 
one strengthens not only security there, but national security 
in general?
    Mr. Nunziato. Well, with the collective bargaining 
agreement, any lack in security, anything--lack of manpower, 
leaving a vulnerable target open--if you have a union behind 
you, you are more likely to come to the union or make your 
position aware to your employer.
    If you have no rights protecting you, chances are you will 
not want the backlash from your employer and you will remain 
silent, and you are talking about nuclear power plants, subway 
systems. I mean, that is a tremendous risk to take.
    Mr. Hare. And lastly, Mr. O'Connor, I am sorry for picking 
on you here, but both Mr. Reichenberg and Mr. Clark think that 
H.R. 980 was a federal one-size-fits-all solution, and I was 
wondering if you would agree with that, and if so, why not?
    Mr. O'Connor. I do not think anything could be further from 
the truth. I think that we have crafted this bill over 12 years 
to give maximum flexibility to the states. The fact that the 
parameters are drawn so broadly--states have the right to 
determine the processes for elections--if they want secret 
ballot elections, which, obviously, is a very hot topic in this 
committee, they can do so. If they want to have just a 
mediation process, they can do that.
    I think that it is so broadly crafted that it does provide 
maximum flexibility and states are free to observe that and to 
enact laws that they think best fit their particular 
localities.
    Mr. Hare. Thank you.
    In conclusion, Mr. Chairman, I want to thank both these 
gentlemen. As I said, I do not know where we would be without 
you and the other people that we are discussing today, and from 
my perspective, again, this is about fairness. It is about 
providing the opportunity if people want to engage in 
collective bargaining agreements.
    You know, we can talk about the legalities of it, but, you 
know, I am not an attorney either. I am a trade unionist 
myself. It seems to me that we should be able to sit down and 
give people the opportunity, if they want, to negotiate a 
contract to help themselves.
    As you said, Mr. Nunziato, for that person that died, for 
that spouse and for those kids, I think that is incredibly 
important.
    Thank you, Mr. Chairman.
    Chairman Andrews. Thank you very much.
    You know, the committee has jurisdiction over Title VII 
employment discrimination, and I think there is a lot of 
discrimination against attorneys going on at this hearing 
today. [Laughter.]
    So I am thinking about our next hearing----
    Mr. Kline. No more than is deserved.
    Chairman Andrews [continuing]. Maybe adding attorneys as a 
protected classification under that. Can I have some help with 
that? Can I have an amen to that, Mr. Clark?
    Okay.
    The gentleman from Pennsylvania, Mr. Sestak, is recognized 
for 5 minutes.
    Mr. Sestak. Thank you, Mr. Chairman.
    I was struck by, Mr. Banks, your comment on the 
constitutionality, the issue of how federalist values protect 
individual rights, equal individual rights.
    I come at this issue from a background of, you know, having 
served in the military for 31 years, protecting individual 
rights, but I also was a fire marshal for my first 3\1/2\ years 
in the Navy, so I kind of consider myself a public safety--in 
the larger term, we, the military and firefighter first 
responders, are.
    It always bemused me to be stationed in Florida, and then 
be stationed in California and then to be stationed, in between 
the time I was overseas--in Virginia, to watch the disparity in 
what my fellow public safety officials had the right to do.
    So having the protected on the military side these 
individual rights and having been one of these public safety 
officials, even a fire marshal, I come at this as, gosh, I do 
not understand not having these individual rights, having 
fought for them overseas and elsewhere for so long, and that is 
kind of just a comment.
    But my question, sir, to you, Mr. Reichenberg, is, as you 
step aside and take this constitutional issue and place it 
here, maybe it will go to the Supreme Court or not, although I 
feel comfortably where I sit on the issue--as I look at your 
titles of each of your sections and as you spoke and you 
underlined them in your testimony, it seems like the three or 
four other prevailing ones you have is: We do not know if this 
legislation will bring out better cooperative relationships. 
That does not seem to move me as though why not to do it.
    The second one is the state knows best. Again, whether it 
was the civil rights or the women's right to vote, I mean, it 
has not always moved me as that is so significant, when you 
talk about individual rights.
    And your third one was the FLRA is a bad agency. I think we 
could fix that. You know, if something does not work, we can 
always fix it, is how I went about things in the military. You 
just did not ignore it.
    And the last one was public safety officials. Well, the 
next step would be teachers, you said. But doesn't this focus 
us on public safety officials?
    Do I have your argument wrong?
    Mr. Reichenberg. First, let me again reiterate that the 
organizations that I am testifying on behalf of today do 
support collective bargaining rights. So we are not here to say 
that we are opposed to collective bargaining.
    However, our primary concerns with this legislation focus 
around whether this is something that Congress should mandate, 
or is it something that is best decided by state and local 
governments? Where state and local governments decide that, we 
are fully supportive of those efforts. We have a long history 
of doing that. We have focused a large amount of attention 
during my tenure on the whole issue of labor-management 
cooperation. We are strong supporters of labor-management 
cooperation.
    However, we do not necessarily believe that the Congress 
and the FLRA should determine whether state and local 
governments enter into collective bargaining agreements, and in 
terms of whether the other public employee unions would be 
coming to Congress and saying, ``Me too,'' I would be very 
surprised, if not shocked, if this law is passed, if, in the 
next session of Congress, there isn't a bill introduced 
mandating collective bargaining for teachers and other 
occupations, and, again, if state and local governments want to 
mandate, that is where we believe this issue should rightfully 
be decided.
    Mr. Sestak. But in the past, would you agree that there 
have been certain times in our nation where the federal 
government potentially held up a national mirror and said, ``We 
are better than this in ensuring equal rights in areas such as 
civil rights or women's right to vote.'' Could this not be the 
same? I mean, I understand, but is it really a black and white 
issue on every one? It has proven better in the past to have 
done it, or am I wrong?
    Mr. Reichenberg. Well, I think that there is a distinction 
between laws like the Americans with Disabilities Act and Title 
VII, which is providing protection to individuals that have 
historically been discriminated against. I think there is a 
clear distinction in that and the situation with public safety.
    I believe that public safety employees, if you look at 
compensation, if you look at benefits, if you look at pensions, 
they are certainly more generous than they are in the private 
sector, and they tend within state and local governments to be 
more generous, and that is fine. Those are decisions made 
locally. We are fully supportive of Title VII of ADA, of FLMA. 
We are one of the few management organizations to actually 
endorse the Federal Family and Medical Leave Act.
    So, yes, but that is providing a floor for rights, and we 
fully support those. This, in terms of collective bargaining, I 
do not think you have employees who have been traditionally 
discriminated against here in terms of public safety employees.
    Mr. Sestak. Mr. Chairman, may I make one final 30-second 
closing comment?
    Chairman Andrews. Sure.
    Mr. Sestak. I was struck by your comment ``historically 
discriminated against,'' is how the federal government has 
intervened. I cannot ask another question, but I believe it 
would be right to say that those who could not collectively 
bargain for however long historically, that we are 
discriminating against them historically also. I am sorry I 
cannot ask more, but I would place that in the same category.
    Thank you, Mr. Chairman.
    Chairman Andrews. The gentleman's time has expired.
    The chair recognizes the gentlelady from New York, who has 
had considerable experience with local labor issues as a member 
of the city council in the city of New York. The gentlelady is 
recognized for 5 minutes.
    Ms. Clarke. Thank you so much, Mr. Chair.
    I thank each of you for your testimony here today, and I 
want to just start by stating that I believe that strengthening 
state and local efforts for collective bargaining for our 
front-line first responders post-9/11 is an imperative. 
September 11 has redefined and expands the role of the public 
safety employee in a way in which none of us could ever have 
envisioned before.
    Just this past weekend, Mr. Chairman, the FBI, the NYPD, 
the Port Authority Police Department and other law enforcement 
agencies joined forces to stop a planned terrorism attack on 
JFK International Airport. The plan called for the explosion of 
jet fuel reserves at JFK. The jet fuel is delivered to JFK by a 
series of pipelines which traverses my home district of 
Brooklyn, New York. By exposing this plot, law enforcement 
agencies saved countless lives.
    These dedicated, hardworking men and women deserve the 
right to discuss workplace and safety issues with their 
employer. In fact, statistics show that when first responders 
can discuss workplace issues with their employers, the results 
are improved public safety.
    For example, firefighters that do not have the right to 
discuss workplace safety are often twice as likely to die in 
the line of duty. Civilian fire deaths are 21 percent lower in 
the states where firefighters and their employers have a 
mechanism to address fire safety issues. Nine of the top 10 
states with the highest civilian fire death rates were non-
collective bargaining states.
    The federal government already grants the right to 
collective bargaining to most employees. I support extending 
this right to courageous first responders who are the public's 
first line of defense.
    Having said that, I would like to ask my first question of 
Kevin O'Connor, and I would like to ask how are your membership 
suggestions currently being addressed without collective 
bargaining rights, and are the employers seeking your 
suggestions or input into workplace safety issues?
    Mr. O'Connor. Well, obviously, in collective bargaining 
states, it is governed by the process that has been described 
here by all the panelists. So I am going to limit my comments 
to places where there are non-collective bargaining states.
    I cannot sit here and tell you that in every one of those 
states, there is no cooperation between employers and 
employees. That would be a fallacy. But, unfortunately, without 
a structured process, it is a very haphazard process. Some 
places, input is solicited, but it is solicited when management 
actually wants to sit down and discuss an issue. If there is an 
issue that they think is a little bit thorny, by and large, 
there will not be a cooperative dialogue on it.
    There are best case examples. Representative Kildee 
referenced Fairfax County and his personal knowledge there. 
Currently, there is a wonderful cooperative policy between the 
fire chief and the local union, but, in order for them to 
really discuss anything with the board of supervisors, they 
have to go through a very roundabout process, and it is our 
contention that it would be much more uniform, much more 
productive and much more efficient without imposing any type of 
financial burden on the local jurisdiction by having a 
structured process.
    That is why the words I chose in my oral statement, I chose 
them very carefully. This bill mandates a process, not an 
outcome.
    Ms. Clarke. This question is for Kevin O'Connor and Paul 
Nunziato. Based on your testimonies, it appears that an 
organization's morale is affected by their collective 
bargaining status.
    Can you both elaborate on how morale impacts both 
organizations that have collective bargaining as well as those 
that do not have collective bargaining privileges?
    Mr. Nunziato. Well, I can only speak for my association and 
my police department. We do have collective bargaining. I sit 
on the equipment meeting with the Port Authority. We discuss 
all issues of safety and equipment. I cannot imagine not having 
a collective bargaining agreement to protect our members and 
myself.
    I do not know how the other states--the morale there--I 
cannot imagine how low it would be without a union behind it to 
protect your rights and your equipment and safety issues.
    Mr. O'Connor. I can give an anecdote from the National 
Capital Region. Here, firefighters and law enforcement officers 
in the District of Columbia enjoy collective bargaining rights. 
They also enjoy that in Maryland.
    Responses, like the Pentagon during 9/11, brought 
responders from all three jurisdictions. When the Virginia 
firefighters go back to their respective jurisdictions, Fairfax 
being a notable example to the contrary--firefighters in 
Arlington really did not have an opportunity to sit down and 
kind of decompress and do a critique of operations in that kind 
of a structured process, and, in fact, we actually got 
commentary from some of our leadership and rank-and-file 
members when they talked to their colleagues in places that do 
have collective bargaining.
    It is particularly a troublesome issue where there is a 
contiguous nature of jurisdictions, some of which enjoy 
bargaining, some of which do not.
    Chairman Andrews. The gentlelady's time has expired. Thank 
you very much.
    I would recognize for his closing comments the ranking 
member, my friend from Minnesota.
    Mr. Kline. Thank you, Mr. Chairman.
    I want to thank the panel members for coming. As we 
expected, quite an expert panel. It was great to hear from all 
of you.
    It probably would have been even more fun if we could have 
heard real-world stories from the field from Officer Nunziato 
and Mr. O'Connor or perhaps some more tax-cutting stories from 
the mayor. Those are always well-received over here.
    But I just want to thank you all for coming. It was a 
really fine hearing.
    And thank you, Mr. Chairman. I yield back.
    Chairman Andrews. I thank you.
    I would like to join with my friend in thanking the 
witnesses for extraordinarily fine testimony, very thoughtful. 
You have educated the members of the committee and, I think, 
done a very, very good job.
    We appreciate each of you taking time away from what I know 
is a very, very busy set of obligations in your careers.
    Mayor, you came all the way here from Indiana. We are very, 
very happy to have you with us.
    Officer Nunziato, I did want to mention that we in the New 
York-New Jersey area are profoundly grateful for the work that 
the Port Authority Police did in this weekend's events at JFK 
Airport. We know that you played a central role, along with the 
FBI and others, in what appears to be an excellent achievement 
in law enforcement. We are very grateful for that.
    The way the committee will proceed is that we will take the 
testimony, we will review it. I am certain that we will have an 
attempt to debate probably at the full committee level the pros 
and cons of the issues that we have heard today.
    I think you frame the issue this way: The general rule in 
American labor law is people have the right to organize and 
bargain collectively and have a remedy if there is not 
bargaining in good faith. There is an exception, which exists 
in the case of some public safety personnel. The issue is 
whether that exception should continue to exist, whether there 
is a policy or legal basis for that exception. You have given 
us, I think, ample food for thought as we debate that question.
    I, again, thank the author of the bill, Mr. Kildee, for his 
persistence over the years in dealing with this.
    As per the announcement at the beginning of the hearing, 
members will have 14 days to submit additional materials for 
the hearing record. And if there are any follow-up questions, 
they should be submitted within 7 days.
    We, again, thank the witnesses for your participation.
    And we stand adjourned.
    [Additional materials submitted on behalf of Mr. Andrews 
follow:]

                                        STATE RECOGNITION OF PUBLIC SAFETY OFFICERS' COLLECTIVE BARGAINING RIGHTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Employer must                        Agreement                          Interest
                                  recognize union  Right to bargain     reduced to    Union chosen by      impasse        Enforced or      All required
             State                 as exclusive      collectively        written          majority        mechanism      reviewed thru      employees
                                  bargaining rep                         contract                          required       state courts       covered
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama........................  N                 N                 N                N                N                N                N
                                                                                                                                         (right to form/
                                                                                                                                          join applies
                                                                                                                                          only to fire
                                                                                                                                          fighters)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alaska.........................  Y                 Y                 Y                Y                Y                ...............  Y
                                                                                                       (binding
                                                                                                        arbitration on
                                                                                                        request of
                                                                                                        either party)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Arizona........................  N                 Y                 N                N                N                N                N
                                                   (meet and                                                            (some selected   (state
                                                    confer)                                                              political        employees
                                                                                                                         subdivisions     excluded)
                                                                                                                         may have the
                                                                                                                         authority to
                                                                                                                         enter into
                                                                                                                         agreements,
                                                                                                                         but not all)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Arkansas.......................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
California.....................  Y                 Y                 Y                Y                No (mediation    Y                Y
                                                                     (non-binding                       only by
                                                                      agreement may                     agreement of
                                                                      be submitted                      both parties;
                                                                      to governing                      allows local
                                                                      body for                          ordinances on
                                                                      determination)                    interest
                                                                                                        arbitration)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Colorado.......................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Connecticut....................  Y                 Y                 Y                Y                Y                ...............  Y
                                 (individual                                                           (binding
                                  cotnractual                                                           arbitration)
                                  grievances must
                                  be permitted)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Delaware.......................  Y                 Y                 Y                Y                Y                Y                N
                                 (individual                                                                                             (police and
                                  right to                                                                                                fire fighters
                                  present                                                                                                 only; State
                                  complaints for                                                                                          and political
                                  adjustment)                                                                                             subdivisions
                                                                                                                                          are covered,
                                                                                                                                          but no EMS)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
D.C............................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Florida........................  Y                 Y                 Y                Y                Yes (issues at   Y                Y
                                 (individual                                                            impasse are
                                  cotnractual                                                           submitted to
                                  grievances must                                                       the employer's
                                  be permitted)                                                         legislative
                                                                                                        body for
                                                                                                        binding
                                                                                                        resolution
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Georgia........................  Y                 Y                 Y                Y                N                N                N
                                                                     (may include                                       (only            (fire fighters
                                                                      duty to reduce                                     enforceable      employed by
                                                                      to writing)                                        through          certain large
                                                                                                                         mediation)       municipalities
                                                                                                                                          only; statute
                                                                                                                                          is at option
                                                                                                                                          of
                                                                                                                                          municipality)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hawaii.........................  Y                 Y                 Y                Y                Y                PPCs expressly   Y
                                                                                                                         reviewable;     (State and
                                                                                                                         bargaining       Counties;
                                                                                                                         unit             Hawaii has no
                                                                                                                         determinations   cities)
                                                                                                                         appear to be
                                                                                                                         subject to
                                                                                                                         state policy
                                                                                                                         favoring
                                                                                                                         judicial
                                                                                                                         review of
                                                                                                                         administrative
                                                                                                                         decisions
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Idaho..........................  Y                 Y                 Y                Y                Y                Y                N
                                                                                                                        (no state        (statute on
                                                                                                                         agency, via      right to form/
                                                                                                                         declaratory      join covers
                                                                                                                         judgment)        all employees,
                                                                                                                                          but collective
                                                                                                                                          bargaining
                                                                                                                                          laws are for
                                                                                                                                          fire fighters
                                                                                                                                          employed by
                                                                                                                                          political
                                                                                                                                          subdivisions
                                                                                                                                          only--no State
                                                                                                                                          employees, no
                                                                                                                                          police or EMS)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Illinois.......................  Y                 Y                 Y                Y                Y                Y                Y
      (for EMT-only units)                                                                             (either party    (contract);      (collectively)
                                                                                                        may request      admin
                                                                                                        mediation; by    decisions
                                                                                                        consent, fact    unknown
                                                                                                        finding)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Illinois.......................  Y                 Y                 Y                Y                Y                Y                Y
(for Police, Fire, and PM                                                                              (mediation is    (contract);      (collectively)
             units)                                                                                     mandated;        admin
                                                                                                        either party     decisions
                                                                                                        may request      unknown
                                                                                                        arbitration)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Indiana........................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Iowa...........................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Kansas.........................  Y                 Y                 Y                Y                Y                Y                Y
                                                                                                                        (admin
                                                                                                                         decisions;
                                                                                                                         contract must
                                                                                                                         be implemented
                                                                                                                         by governing
                                                                                                                         body in the
                                                                                                                         form of law,
                                                                                                                         resolution,
                                                                                                                         ordinance or
                                                                                                                         executive
                                                                                                                         order)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Kentucky.......................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Louisiana......................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Maine..........................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Maryland.......................  N                 N                 N                N                N                Y                n/a
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Massachusetts..................  Y                 Y                 Y                Y                Y                Y                N
                                                   (cannot bargain                                                      (admin           (employees of
                                                    over                                                                 decisions;       militia or
                                                    contributions                                                        arbitration is   national guard
                                                    to certain                                                           enforceable      excluded)
                                                    retirement                                                           via agency)
                                                    benefits)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Michigan.......................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Minnesota......................  Y                 Y                 Y                Y                Y                Y                Y
                                                                                                       (mandatory for
                                                                                                        FFs and
                                                                                                        Police; via
                                                                                                        petition to
                                                                                                        state agency
                                                                                                        for non-
                                                                                                        essential
                                                                                                        employees)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Mississippi....................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Missouri.......................  Y                 Y                 Y                Y                N                Y                N
                                 (implied)         (meet and                                                                             (police,
                                                    confer)                                                                               national guard
                                                                                                                                          excluded)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Montana........................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nebraska.......................  Y                 Y                 Y                Y                Y                ...............  N
                                                                                                                                         (National Guard
                                                                                                                                          and militia
                                                                                                                                          excluded)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nevada.........................  Y                 Y                 Y                Y                Y                Y                N
                                                                                                       (different       (admin           (state
                                                                                                        mechanism for    decisions;       employees
                                                                                                        EMS-only         contract         excluded)
                                                                                                        employees)       unknown)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire..................  Y                 Y                 Y                Y                Y                Y                Y
                                                                                                                        (admin
                                                                                                                         decisions;
                                                                                                                         contract
                                                                                                                         unknown)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
New Jersey.....................  Y                 Y                 Y                Y                Y                Y                Y
                                                                                                       (different
                                                                                                        mechanism for
                                                                                                        EMS-only
                                                                                                        employees)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
New Mexico.....................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
New York.......................  Y                 Y                 Y                Y                Y                Y                Y
                                                   (except                            (see NY PERB
                                                    retirement                         Rules, 4 NYCRR
                                                    contributions)                      201.1 et seq.
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
North Carolina.................  N                 N                 N                N                N                N                n/a
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
North Dakota...................  N                 N                 N                N                N                Y                Y
                                                                                                                        (right to
                                                                                                                         membership
                                                                                                                         only)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Ohio...........................  Y                 Y                 Y                Y                Y                Y                N
                                                                                                       (limited to the                   (population of
                                                                                                        termination or                    at least 5,000
                                                                                                        modification                      required)
                                                                                                        of an existing
                                                                                                        collective
                                                                                                        bargaining
                                                                                                        agreement or
                                                                                                        negotiation of
                                                                                                        a successor
                                                                                                        agreement, or
                                                                                                        the
                                                                                                        negotiation of
                                                                                                        an initial
                                                                                                        collective
                                                                                                        bargaining
                                                                                                        agreement)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Oklahoma.......................  Y                 Y                 Y                Y                Y                Y                N
                                                                                                                        (admin           (EMS-only
                                                                                                                         decisions;       departments,
                                                                                                                         contract         and State
                                                                                                                         unknown)         employees,
                                                                                                                                          excluded)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Oregon.........................  Y                 Y                 Y                Y                Y                ...............  Y
                                                                                                                                         (State, cities,
                                                                                                                                          counties,
                                                                                                                                          service
                                                                                                                                          districts, and
                                                                                                                                          municipal
                                                                                                                                          corporations)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pennsylvania...................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Rhode Island...................  Y                 Y                 Y                Y                Y                Y                Y
                                                                                                                        (arbitration
                                                                                                                         awards for
                                                                                                                         city or town
                                                                                                                         fire or police
                                                                                                                         may only be
                                                                                                                         reviewed by
                                                                                                                         writ of
                                                                                                                         certiorari to
                                                                                                                         State Supreme
                                                                                                                         [highest]
                                                                                                                         Court)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
South Carolina.................  N                 N                 N                N                N                N                n/a
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
South Dakota...................  Y                 Y                 Y                Y                Y                Y                Y
                                                                     (governing body                                    (if approved by
                                                                      shall                                              governing
                                                                      implement [a                                       body)
                                                                      bargaining]
                                                                      settlement in
                                                                      the form of an
                                                                      agreement
                                                                      which shall be
                                                                      effective only
                                                                      upon approval
                                                                      by resolution
                                                                      of the
                                                                      governing
                                                                      body.)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Tennessee......................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Texas..........................  Y                 Y                 Y                Y                Y                Y                N
                                 (conditional on   (conditional on   (conditional on  (conditional on  (conditional on  (conditional on  (collective
                                  adoption)         adoption)         adoption)        adoption)        adoption)        adoption)        bargaining is
                                                                                                                                          prohibited for
                                                                                                                                          State
                                                                                                                                          employees; EMS-
                                                                                                                                          only
                                                                                                                                          departments in
                                                                                                                                          local
                                                                                                                                          governments
                                                                                                                                          excluded;
                                                                                                                                          statutory
                                                                                                                                          protections do
                                                                                                                                          not apply
                                                                                                                                          without
                                                                                                                                          successful
                                                                                                                                          referendum)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Utah...........................  Y                 Y                 N                Y                Y                Y                N
                                                                     (but implied                                       (via             (collective
                                                                      from text of                                       declaratory      bargaining
                                                                      statute)                                           enforcement      only for
                                                                                                                         only)            municipal fire
                                                                                                                                          fighters;
                                                                                                                                          other
                                                                                                                                          employees have
                                                                                                                                          right to form
                                                                                                                                          union)
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vermont........................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Virginia.......................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Washington.....................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
West Virginia..................  N                 N                 N                N                N                N                N
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Wisconsin......................  Y                 Y                 Y                Y                Y                Y                Y
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Wyoming........................  Y                 Y                 Y                Y                Y                Y                N
                                                                                                                        (via             (some political
                                                                                                                         declaratory      subdivisions
                                                                                                                         enforcement      may be
                                                                                                                         only)            excluded from
                                                                                                                                          coverage; no
                                                                                                                                          police or EMS;
                                                                                                                                          no state
                                                                                                                                          employees)
--------------------------------------------------------------------------------------------------------------------------------------------------------
*The Pennsylvania Supreme Court, attempting to resolve dissonant elements of three separate labor relations statutes, concluded that ``by imposing that
  [collective bargaining] duty in Act No. 111, the Legislature intended that the exclusion of public employers from the definition of `employer' in the
  PLRA be pro tanto repealed.'' (Philadelphia Fire Officers Asso. v. Pennsylvania Labor Relations Bd., 369 A.2d 259, 261-262 (Pa. 1977). Thus, police
  and fire fighters covered by Act 111 are protected in their right to organize under the 1937 Pennsylvania Labor Relations Act. In addition, EMS-only
  departments, which are not covered by Act 111, are protected under 43 P.S. Sec.  1101.401.

      [U.S. Department of Labor news release, dated May 28, 1996]

           Report Finds Labor Management Cooperation Critical
                 To State and Local Government Success

    A study of 50 public workplaces found that labor-management 
cooperation and employee participation in the public sector leads to 
dramatic improvements in quality, costs and delivery of service, the 
U.S. Department of Labor announced today.
    The report, entitled ``Working Together for Public Service,'' 
details specific service improvements and cost savings that result from 
cooperation and participation, as well as methods that can be used to 
bring workplace cooperation to many government services and 
jurisdictions.
    The report was issued by the Task Force on Excellence in State and 
Local Government Through Labor-Management Cooperation. It was comprised 
of 14 elected officials, labor leaders and academics and was appointed 
by Labor Secretary Robert B. Reich and co-chaired by former Governor 
Jim Florio of New Jersey and Mayor Jerry Abramson of Louisville, 
Kentucky. The task force was unanimous in the view that public 
workplaces must change from traditional ways of doing business and move 
towards workplace cooperation, participation and quality improvement. 
Further, the task force believes that the public sector offers 
significant opportunity-far more than is commonly believed--for 
employee participation and labormanagement cooperation.
    ``It is evident from these findings that employee involvement and 
labor-management cooperation represent a high-potential strategy for 
meeting the demands on state and local government. I join the task 
force in challenging elected officials, union leaders, public employees 
and administrators to move towards models of workplace paroidpation and 
cooperation. Some of the most dramatic turnarounds in business 
performance come from labor-management cooperation and employee 
participation. We should apply the same lessons to the public sector,'' 
said Reich.
    Mayor Abramson agreed, stating that by ``working together, we can 
cut red tape that contributes to the public's low opinion of government 
today. Citizens are our customers, and they deserve the best service we 
can provide. This report will help those of us in the public sector 
improve our image by improving our performance in servicing our 
customers.''
    Noting that many traditional ways of planning and performing public 
services are antiquated and not responsive to the needs of communities, 
Governor Florio commented that, ``cumbersome procurement, accounting 
and civil service rules, authoritarian organizational relationships and 
labor management confrontation are often part of the landscape, but 
surely won't serve our communities well anymore. These findings suggest 
how to break old molds and use some approaches that can actually 
produce better service.''
    Also among the report findings: Absenteeism, time loss injuries, 
and overtime were often reduced significantly. Work schedules and 
procedures were changed to save time and money and to provide better 
service. School performance improved, public safety services increased, 
and vehicle readiness and equipment purchasing were improved to save 
overtime and other costs and improve the quality of service.
    In every case where there was a collective bargaining relationship 
related to a service-focused partnership, the task force found that 
there were fewer grievances and contracts were negotiated more quickly. 
Usually, contracts were shorter, more flexible and focused on service 
responsibilities.
    ``Employees usually know the most about how to get a job done. If 
you create a way for them to be involved, don't rely on top-down 
approaches, and then combine their talents with the priorities of 
elected officials, you can find resources you did not know you had and 
solve problems that have been in the way for years,'' Reich said.
    The report includes examples and detailed discussion of ingredients 
to creating cooperative workplace arrangements. The appendix lists 
contacts so that parties interested in pursuing their own improvements 
can get peer assistance. The report is available on three Internet 
sites: the U.S. Departrnent of Labor web site, the Martin P. Catherwood 
Library at the School of Industrial and Labor Relations at Cornell 
University, and through the Alliance for Reinventing Government's 
Public Innovator Learning Network.
Some Typical Examples
    <bullet> The State of Connecticut and District 1l99/New England 
Health Care Employees (SEIU) set up employee teams to look into safety 
problems, reducing injuries and saving nearly S5 million after 
implementation in only half the department.
    <bullet> In Peoria, Illinois, a coalition of unions and management 
worked on a joint committee that stopped the bickering and competition 
over health coverage, developed a plan with better benefits and 
utilization management, and saved $1.2 million--or almost 20 percent--
of expected costs.
    <bullet> As part of a quality improvement/labor-management 
partnership, Madison, Wisconsin and AFSCME Local 60 developed a new 
approach to electrical code enforcement that has improved safety and 
overall compliance and has electrical contractors complimenting the 
department. The senior inspector, once known as ``Dr. No'' is now a 
well-respected and more satisfied public employee. As a result of a 
training program developed after consultation with electrical 
contractors, inspection activity costs S30,000 a year less.
    <bullet> At the Foshay School in South Central Los Angeles, drop-
outs have gone from 21 percent to 3.5 percent, test scores from the 
bottom to near the state average. Suspensions have gone from 400 cases 
to 40, all through a labor-management partnership formed by a new 
principal and the local head of the United Teachers or Los Angeles. The 
City of Indianapolis, working with AFSCME Local 3131, as part of a 
citywide service improvement effort, made substantial improvements in 
the city's motor vehicle repairs, showing nearly a 25 percent decline 
in that department's budget and a 90 percent decline in grievances. 
Rather than annual wage adjustments, the parries agreed during the 
current contract to a gain-sharing program, where 25 percent of the 
savings accrued to the employees. Although no bargaining unit employee 
has lost a job, the city contracts out some services, under ground 
rules developed with the input of union representatives. Among other 
things, improvements in cost accounting helped labor and management 
identify barriers to service improvement.
    <bullet> In the State of Ohio, probably the most comprehensive 
effort found at the state level, a state-wide effort in cooperation 
with the Ohio Civil Service Employees Association is saving hundreds of 
thousands of dollars annually and engaging labor and management 
leadership in learning the best quality improvement techniques and 
applying them to state government.
    In Phoenix, Arizona, the management team and representatives of 
Fire Fighters Local 493 gather each year in a planning retreat to 
identify service and workplace issues needing attention. Arbitration 
has not been used there for 10 years.
    <bullet> The Los Angeles Bureau of Sanitation and SEIU Local 47 
have, among other innovations through a joint problem-solving 
committee, increased vehicle readiness from 75 percent to 94 percent, 
obtaining a large increase in productivity. The overall labor-
management relationship has shifted to a far more positive tone and the 
next three years looks for a 25 percent budget reduction with no 
layoffs in the department.
    <bullet> In Portland, Maine, the city and AFSCME Local 481 worked 
together through a cold winter to use new approaches and skills to 
build a community minor league ballpark, millions of dollars below the 
projected contract cost. Grievances were resolved by a ``a walk to 
center field.'' The pride and lessons from this high-pressure project 
has resulted in a complete revamping of the labor-management 
relationship and a reorientation of almost all public works services 
into self-managed teams. City workers more often than not beat the 
estimated private-sector cost of most small construction and repair 
projects.
Some Additional Interesting Findings
    <bullet> In conjunction with a participative program and a labor-
management partnership, a ``no-layoff,'' or, at least, a significant 
employment safety net and retraining program, contributed greatly to 
creativity in finding cost savings and service improvements.
    <bullet> Simple forms of training were found to greatly contribute 
to the improvement of a labor-management relationship by teaching the 
parties alternatives to traditional bargaining. Investments in 
training, normally the first budget item cut in hard times, turned out 
to be important also in teaching workers and managers skills in 
analyzing and changing service delivery systems and solving other kinds 
of workplace issues.
    <bullet> Often, a service-oriented relationship began after a 
successful attempt to reduce grievances or conflicts over contract 
terms, or after working together to resolve a specific service problem. 
The improved trust and better problem-solving skills then were applied 
to larger service issues. Most successful service partnerships started 
small, on one issue, or in one department or division, and then spread.
    In a brief examination of contracting out, the task force found 
that cooperative models of workplace cooperation generally got as good 
or better results than a policy of imposed contracting out, and offered 
other long term benefits. Contracting out as part of a cooperative 
relationship was often a useful tool, but not the primary answer to 
cost and quality of services.
    Supervisory and managerial levels were often reduced as a result of 
participative examination of services for improvements and 
efficiencies, and there was a far greater use of teams and labor-
management committees.
    Jurisdictions involved in workplace partnerships where there was a 
collective bargaining relationship used the features and mechanisms of 
a collective bargaining relationship to the advantage of service 
improvement.
    Changes and improvements in budgeting, cost accounting, procurement 
practices and in civil service systems often accompanied successful 
cooperative partnerships and greatly aided efforts to improve services. 
Employee involvement contributed centrally to identifying the most 
important changes and to developing alternatives.
    Support and encouragement from national labor, management, neutral 
and research organizations have and can help spread the use of 
effective workplace participation and labor-management cooperation 
aimed at improved service delivery.
    Successful cooperative relationships emerged not only from 
visionary leadership, but often from bitter or difficult relationships 
or came up around problems that had previously seemed insurmountable.
                                 ______
                                 
    [Materials submitted on behalf of Mr. Kline follow:]

                         Fraternal Order of Police,
                International Association of Fire Fighters,
                                                    April 18, 2007.
Hon. George Miller, Chairman,
Hon. Buck McKeon, Ranking Member,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller and Ranking Member McKeon: On behalf of over 
600,000 public safety officers across our Nation, we are writing to 
respectfully request that you approve the Kildee Substitute, and oppose 
any further amendments to H.R. 980, the Public Safety Employer-Employee 
Cooperation Act, when it is considered before the Committee on 
Education and Labor.
    The Kildee substitute is the result of bipartisan cooperation, and 
follows more than a decade of refinements and improvements to the 
Cooperation Act. We believe it strikes the proper balance between 
providing important protections to thousands of public safety officers, 
while respecting the rights of states to determine labor law for public 
employees. We fear further amendments would jeopardize the careful 
compromise that has garnered strong, bipartisan support.
    Thank you for all your efforts on behalf of the nation's public 
safety officers. We look forward to working with you on this and other 
important issues throughout the 110th Congress.
            Sincerely,
                                          Chuck Canterbury,
                     National President, Fraternal Order of Police.
                                    Harold A. Schaitberger,
     General President, International Association of Fire Fighters.
                                 ______
                                 
             International Association of Chiefs of Police,
                                    Alexandria, VA, April 18, 2007.
Hon. Bob Etheridge,
U.S. House of Representatives, Washington, DC.
    Dear Representative Etheridge: On behalf of the International 
Association of Chiefs of Police (IACP), I am writing you to express our 
strong opposition of the Public Safety Employer-Employee Cooperation 
Act of 2007 (H.R. 980). IACP is the world's oldest and largest 
association of law enforcement executives, with more than 22,000 
members in 100 countries.
    Safe streets and safe neighborhoods require well-trained and well-
managed police departments that are responsive and accountable to the 
communities they serve. The IACP believes that the provisions of H.R. 
980 would effectively federalize state and local government labor-
management relations and as a result, would make these goals harder to 
achieve.
    H.R. 980 seeks to deprive state and local governments of the 
necessary flexibility to manage their public safety operations in a 
manner that they choose. By mandating a ``one-size fits all'' approach 
to labor-management relations, H.R. 980 ignores the fact that every 
jurisdiction has unique needs and therefore requires the freedom to 
manage its public safety workforce in the manner that they have 
determined to be the most effective.
    The IACP believes that H.R. 980 would only harm the efficiency of 
state and local public safety agencies by forcing them to divert their 
precious resources from their primary mission of protecting the public 
and instead use them for collective bargaining administration.
    Should you have any questions or require additional information, 
please do not hesitate to contact our Legislative Affairs Office. The 
IACP stands ready to assist you in any way possible.
            Sincerely,
                                          Joseph C. Carter,
                                                         President.
                                 ______
                                 
                                                      June 5, 2007.
Hon. Robert Andrews, Chairman,
Health, Employment, Labor and Pensions Subcommittee, Committee on 
        Education and Labor, U.S. House of Representatives, Rayburn 
        House Office Building, Washington, DC.
    Dear Chairman Andrews: On behalf of the National Association of 
Counties, I write to express concern with H.R. 980, the Public Safety 
Employer-Employee Cooperation Act of 2007, and request that it be 
modified so as not to mandate collective bargaining rights for public 
safety employees.
    NACo believes that each state legislature should decide this issue 
based upon local conditions and circumstances and thus opposes a 
federal mandate. Currently, 34 states have enacted public sector 
collective bargaining laws covering both police officers and 
firefighters. There is no need for a federal mandate which could 
undermine state and local authority in employment practices and 
decisions.
    NACo respectfully urges modification of this legislation, so as not 
to hinder public sector employer-employee relations at the state and 
local level.
                                            Larry E. Naake,
                                                Executive Director.
                                 ______
                                 
Hon. John P. Kline, Senior Republican Member,
Health, Employment, Labor and Pensions Subcommittee, Committee on 
        Education and Labor, U.S. House of Representatives, Rayburn 
        House Office Building, Washington, DC.
    Dear Representative Kline: Thank you for your June 7, 2007 letter 
informing me of the status of H.R. 980, the ``Public Safety Employer-
Employee Cooperation Act of 2007.'' However, the National Conference of 
State Legislatures does not have policy on this matter and cannot at 
this time submit an official position or commentary.
    NCSL appreciates your efforts on this issue and would like for you 
to continue to keep us informed on this and other issues that have an 
impact on state laws and policies. Please do not hesitate to contact me 
in NCSL's Washington, D.C. office for further updates on H.R. 980 or to 
discuss any other issues before the Committee.
            Sincerely,
                              Senator Leticia Van de Putte,
Texas Senate; President, National Conference of State Legislatures.
                                 ______
                                 
                                 National League of Cities,
                                     Washington, DC, June 19, 2007.
Hon. Dale Kildee, Vice Chairman,
Committee on Education and Labor, U.S. House of Representatives 
        Washington, DC.
    Dear Rep. Kildee: On behalf of the 19,000 cities and towns 
represented by the National League of Cities (NLC), I write to express 
our strong opposition to H.R. 980, the Public Safety Employer-Employee 
Cooperation Act of 2007.
    It has long been the position of the NLC that the federal 
government should not undermine municipal autonomy with respect to 
making fundamental employment decisions by mandating specific working 
conditions, including collective bargaining.
    Currently, 33 states have granted their state and local government 
employees the right to enter into collective bargaining arrangements. 
Your legislation would mandate collective bargaining rights for all 
police, fire and emergency medical workers without regard to state laws 
or constitutions and establish a precedent for federal interference in 
all employee-employer relationships in municipal government.
    I urge you to modify this legislation, so that it respects the 
long-standing principal of non-interference in employer-employee 
relations that has existed among the federal, state and local 
governments.
    If you have any questions about NLC's position with respect to H.R. 
980, please contact us.
                                           Donald J. Borut,
                                                Executive Director.
                                 ______
                                 
                                 National League of Cities,
                                     Washington, DC, June 19, 2007.
Hon. George Miller, Chairman,
Hon. Howard McKeon, Ranking Minority Member,
Committee on Education and Labor, U.S. House of Representatives 
        Washington, DC.
    Dear Chairman Miller and Ranking Minority Member McKeon: On behalf 
of the 19,000 cities and towns represented by the National League of 
Cities (NLC), I write to express our strong opposition to H.R. 980, the 
Public Safety Employer-Employee Cooperation Act.
    It has long been the position of the NLC that the federal 
government should not undermine municipal autonomy with respect to 
making fundamental employment decisions by mandating specific working 
conditions, including collective bargaining. In light of the labor 
protections provided by state laws, labor agreements, city government 
civil service systems and municipal personnel procedures, NLC opposes 
federal legislation which singles out a class of municipal employees 
for additional protections like those proposed in H.R. 980.
    Currently, more than 35 states have granted their state and local 
government employees the right to enter into collective bargaining 
arrangements. These states have done so within the framework of their 
constitutions and state laws. Your legislation would mandate collective 
bargaining rights for all police, fire and emergency medical workers 
without regard to state laws or constitutions and establish a precedent 
for federal interference in all employee-employer relationships in 
municipal government.
    I urge you to modify this legislation, so that it respects the 
long-standing principal of non-interference in employer-employee 
relations that has existed among the federal, state and local 
governments.
    If you have any questions about NLC's position with respect to H.R. 
980, please contact us.
                                           Donald J. Borut,
                                                Executive Director.
                                 ______
                                 
    [Whereupon, at 4:34 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
